<html>
<title> - PROMOTING BROADER ACCESS TO PUBLIC TRANSPORTATION FOR AMERICA'S OLDER ADULTS AND PEOPLE WITH DISABILITIES</title>
<body><pre>[Senate Hearing 112-291]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-291
 
 PROMOTING BROADER ACCESS TO PUBLIC TRANSPORTATION FOR AMERICA'S OLDER 
                  ADULTS AND PEOPLE WITH DISABILITIES

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON

           HOUSING, TRANSPORTATION, AND COMMUNITY DEVELOPMENT

                                 of the

                              COMMITTEE ON

                   BANKING,HOUSING,AND URBAN AFFAIRS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

 EXAMINING BROADER ACCESS TO PUBLIC TRANSPORTATION FOR AMERICA'S OLDER 
                  ADULTS AND PEOPLE WITH DISABILITIES

                               __________

                             JUNE 29, 2011

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


                 Available at: http: //www.fdsys.gov /



                  U.S. GOVERNMENT PRINTING OFFICE
72-204                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              RICHARD C. SHELBY, Alabama
CHARLES E. SCHUMER, New York         MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
DANIEL K. AKAKA, Hawaii              JIM DeMINT, South Carolina
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
HERB KOHL, Wisconsin                 PATRICK J. TOOMEY, Pennsylvania
MARK R. WARNER, Virginia             MARK KIRK, Illinois
JEFF MERKLEY, Oregon                 JERRY MORAN, Kansas
MICHAEL F. BENNET, Colorado          ROGER F. WICKER, Mississippi
KAY HAGAN, North Carolina

                     Dwight Fettig, Staff Director

              William D. Duhnke, Republican Staff Director

                       Dawn Ratliff, Chief Clerk

                      Brett Hewitt, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                 ______

   Subcommittee on Housing, Transportation, and Community Development

                 ROBERT MENENDEZ, New Jersey, Chairman

         JIM DeMINT, South Carolina, Ranking Republican Member

JACK REED, Rhode Island              MIKE CRAPO, Idaho
CHARLES E. SCHUMER, New York         BOB CORKER, Tennessee
DANIEL K. AKAKA, Hawaii              PATRICK J. TOOMEY, Pennsylvania
SHERROD BROWN, Ohio                  MARK KIRK, Illinois
JON TESTER, Montana                  JERRY MORAN, Kansas
HERB KOHL, Wisconsin                 ROGER F. WICKER, Mississippi
JEFF MERKLEY, Oregon
MICHAEL F. BENNET, Colorado

               Hal Connolly, Subcommittee Staff Director

          Jeff Murray, Republican Subcommittee Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                        WEDNESDAY, JUNE 29, 2011

                                                                   Page

Opening statement of Chairman Menendez...........................     1

                               WITNESSES

W. Lee Hammond, President, American Association of Retired 
  Persons........................................................     3
    Prepared statement...........................................    23
James Corless, Director, Transportation for America..............     4
    Prepared statement...........................................    27
Mary A. Leary, Assistant Vice President, Easter Seals 
  Transportation Group...........................................     6
    Prepared statement...........................................    31
Steve Fittante, Director, Middlesex County Area Transit..........     8
    Prepared statement...........................................    40
Randal O'Toole, Senior Fellow, Cato Institute....................    10
    Prepared statement...........................................    41

              Additional Material Supplied for the Record

Statement submitted by Sandy Markwood, Chief Executive Officer, 
  n4a............................................................    44

                                 (iii)


 PROMOTING BROADER ACCESS TO PUBLIC TRANSPORTATION FOR AMERICA'S OLDER 
                  ADULTS AND PEOPLE WITH DISABILITIES

                              ----------                              


                        WEDNESDAY, JUNE 29, 2011

                                       U.S. Senate,
               Subcommittee on Housing, Transportation, and
                                     Community Development,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Subcommittee met at 2:01 p.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Robert Menendez, Chairman of the 
Subcommittee, presiding.

         OPENING STATEMENT OF CHAIRMAN ROBERT MENENDEZ

    Chairman Menendez. Good afternoon. I am the Chairman of the 
Senate Banking Subcommittee on Housing, Transportation, and 
Community Development. I want to call this hearing to order.
    I want to welcome all of you to today's hearing on 
transportation for America's older adults and people with 
disabilities. Public transportation is a critical element of 
our transportation network, and recognition of its importance 
continues to rise. Today, with gas prices at nearly $4 a gallon 
and oil companies reaping record profits, with the climate 
changing, with wealth disparity growing, and being on the verge 
of a population explosion in the number of Americans over the 
age of 65, transit is part of the solution for a number of 
interconnected challenges.
    Public transportation brings mobility, access, and personal 
autonomy to millions of people across our country. It is a 
lifeline for those who have limited mobility, for those who 
cannot afford to own an automobile, and for those of us who 
cannot or prefer not to drive.
    Transit creates good-paying, long-term jobs directly and 
helps create countless more by efficiently connecting workers 
with their place of employment.
    As the oldest baby boomers turn 65 this year, a tidal wave 
of older Americans stand before us. Transit service is already 
stretched thin and is getting thinner, and this hits older 
Americans, people with disabilities, and those with low incomes 
or living on fixed incomes especially hard.
    It also undermines any effort to anticipate and prepare for 
the increase in the number of senior riders looking 
increasingly to transit. Transit provides a lifeline to basic 
goods and services for people with limited mobility, 
particularly in rural communities that may have particularly 
few transportation options. Not only will we have more older 
Americans, they will work longer, live longer lives than their 
parents; in some cases they will spend from a quarter to a 
third of their lives over the age of 65. For about one-third of 
these Americans, Social Security will constitute 90 percent or 
more of their income, especially for those who are not married. 
Those on fixed incomes will be particularly hit hard by the 
rising costs of health care, transportation costs, 
prescriptions, and groceries.
    You can learn a lot about the culture of a society by the 
way it treats its elders and the most vulnerable members of our 
society. I am optimistic that, working together, 
reauthorization can be an opportunity to streamline program 
requirements, reduce operational burdens of specialized 
programs, and save transit providers money as well, as well as 
maximize the impact of each public dollar while broadening 
access to public transportation for America's older adults and 
people with disabilities.
    So we look forward to our witnesses' sharing your insights 
and experience with the Committee today. Let me introduce them.
    First we will hear from Lee Hammond, who is the president 
of AARP. Lee has directed AARP's board since 2002 and is deeply 
attuned to the broad variety of challenges that America's older 
Americans are facing. And Lee continuously sends mail to my 
mailbox at home trying to solicit me into his organization, and 
I am not relenting yet, Lee, but in any event, we welcome you 
here.
    We will hear from James Corless, who directs Transportation 
for America. T4 recently released a new report that looks at 
aging trends for the baby-boomer generation, and Mr. Corless 
will talk with us about those findings today, and we appreciate 
you being here.
    Dr. Mary Leary is with us. She is the assistant vice 
president of the Easter Seals Transportation Group and an 
expert on the needs, trends, and resources available to people 
who have disabilities. We welcome you.
    From my home State of New Jersey, I am pleased to welcome 
Steve Fittante, who is the executive director of the Middlesex 
County Area Transit. He draws on extensive private and public 
sector experience to implement some innovative approaches for 
coordination and revenue generation in Middlesex County. It is 
good to have you here, Steve.
    Finally, the Subcommittee will hear from Randal O'Toole, 
who is a senior fellow at the Cato Institute and is here at the 
invitation of our Ranking Member, Senator DeMint. Mr. O'Toole 
has spent much of his career promoting free market approaches 
for solving transportation challenges. He has been before the 
Committee before, and we appreciate you being here as well.
    Let me invite our panel to deliver your oral testimony, 
around 5 minutes. Your full written testimony will be included 
in the record, without objection, and with that we will start 
with Mr. Hammond and work our way down the panel as I 
introduced you. Mr. Hammond.

STATEMENT OF W. LEE HAMMOND, PRESIDENT, AMERICAN ASSOCIATION OF 
                        RETIRED PERSONS

    Mr. Hammond. Good afternoon, Chairman Menendez, and we will 
keep trying. My name is Lee Hammond, and I serve as president 
of AARP. I appreciate the opportunity to testify before you 
this afternoon on a topic that is critical to millions of older 
Americans: how they will maintain their independence as they 
step away from the wheel of their car.
    By 2030, nearly every fifth person in the United States 
will be age 65 or older. Our research indicates that nearly 90 
percent of persons age 50 and above prefer to remain in their 
own homes as they age, and 95 percent prefer to remain in their 
own communities.
    The World War II generation followed the interstate and 
attractive FHA home financing to the suburbs, where they raised 
their children, the first generation to grow up in this locale. 
The baby-boom generation is now aging in place and turning the 
suburbs gray. Over half of individuals 50-plus now live in the 
Nation's suburbs, resulting in a mobility mismatch between 
communities designed almost exclusively for the automobile and 
a growing population that does not drive.
    Lack of transportation imposes serious personal costs for 
the 8 million seniors who do not drive. According to the 2001 
National Household Travel Survey, nondrivers made 15 percent 
fewer trips to the doctor than those who drove, 59 percent 
fewer shopping and restaurant trips, and 65 percent fewer trips 
for social, family, and religious activities. These individuals 
are more likely to be women and ethnic minorities. Most have a 
medical condition that makes it hard to travel, and a third 
live alone. They also tend to have fewer economic resources.
    Nondrivers are at risk of social isolation and depression. 
In the words of a suburban participant in an AARP focus group, 
``My world has been reduced to one square mile since I stopped 
driving.'' This is a particular concern in rural areas, home to 
one-fifth of seniors. Nearly one-quarter of rural persons age 
65 and older do not drive. One study found that the nondrivers 
in their semirural sample of older adults were nearly four 
times as likely as drivers to end up in long-term care, not 
necessarily because they needed long-term care services but 
because they could no longer function independently without 
transportation.
    Public transportation plays a vital role in addressing 
these problems and helping older adults maintain their 
independence and connections to their community. Seniors took 
over 1 billion trips on public transportation in 2009, an 
increase of 328 million trips since 2001.
    I would like to mention a transit program that has a 
disproportionate share of older riders: the Section 5310 
program for the elderly and persons with disabilities. While 
historically underfunded, the Section 5310 program has 
functioned well for over 30 years. It is the only Federal 
transportation program that was rated in a GAO report on 
transportation-disadvantaged seniors as achieving all five A's 
of senior-friendly transportation: available, accessible, 
affordable, acceptable, and adaptable.
    AARP does not support merging 5310 with other programs. We 
urge that any proposal to do so carefully consider the impact 
on the population served from the perspectives of both quality 
and quantity of service. We also urge that any proposal build 
upon the proven success of the Section 5310 program, that 
funding for 5310 be increased, and that operating assistance be 
made eligible for funding.
    Better coordination of human services programs can reduce 
potential duplication of services and create more efficient and 
effective services. AARP supports strengthening the requirement 
under current law that funding for Section 5310, JARC, and the 
New Freedom be derived from a locally developed human services 
coordination plan. We also seek a stronger role for older 
adults, persons with disabilities, and low-income individuals 
in the coordinated human services planning process.
    As you move forward to authorize the Surface Transportation 
Program, we strongly urge you to increase investment in public 
transportation, including urban, rural, planning, and 
specialized programs. We also recommend greater emphasis on 
mobility management programs, incentives for local communities 
to develop innovative programs, authorization of the National 
Center on Senior Transportation, and inclusion of Complete 
Streets in the authorization bill.
    Thank you for this opportunity to testify before you. I 
refer you to my statement for a full set of recommendations for 
authorization, and I welcome any questions you may have.
    Chairman Menendez. Thank you very much.
    Mr. Corless.

   STATEMENT OF JAMES CORLESS, DIRECTOR, TRANSPORTATION FOR 
                            AMERICA

    Mr. Corless. Chairman Menendez, thank you again for the 
opportunity to testify today. I am James Corless, director of 
the Transportation for America coalition. Our coalition 
consists of over 500 partners in 40 States, and we believe 
simply America needs a more robust transportation network that 
provides more choices, guarantees Americans the freedom to 
choose, to move however we choose, and that leads to a strong 
economy and greater economic security, a cleaner environment, 
and a healthier America for all of us.
    Before I was director of T4, I served with the Metropolitan 
Transportation Commission, which is the largest regional 
transportation planning agency in Northern California, and 
there I oversaw development of our region's Coordinated Human 
Services Public Transportation Plan required under SAFETEA-LU, 
and guided the investment of a variety of Federal 
transportation funds intended to improve the mobility of 
seniors, low-income families, and people with disabilities.
    As you referenced in your opening statement, we recently 
released a new report titled ``Aging in Place, Stuck Without 
Options'' that finds, alarmingly, that by 2015 more than 15 
million Americans 65 and older will live in communities where 
public transportation service is poor or nonexistent. And that 
is a 35-percent increase over 2000. In communities like 
Atlanta, we are looking at 90 percent of seniors with poor or 
no access to public transportation by 2015.
    Now, let me be clear. A majority of seniors will continue 
to meet most of their travel needs by driving. This is not an 
either/or proposition. But we do know there will be more 
seniors with the aging of the baby boomers. We do know they 
will live longer, and we do know that at some point they are 
going to need and rely on more transportation options.
    A 2002 study published in the American Journal of Public 
Health found that men in their early 70s who stop driving need 
to access transportation options for an average of 6 years 
while women will need to access transportation options for an 
average of 10 years.
    So what are the answers? There are as many ways to address 
the mobility needs of an aging population as there are 
communities, allowing seniors to age in place, as the vast 
majority will clearly want to do.
    Now, I want to be clear. While we certainly believe the 
need to maintain and expand investment in traditional fixed-
route public transportation to truly meet the mobility 
challenges of a booming senior population aging in suburban and 
rural areas is going to require some nontraditional approaches 
to providing mobility, particularly where the bulk of seniors 
currently live in suburbs and rural areas.
    As this happens, we are seeing more and more small agencies 
pop up to meet these new challenges, providers like River 
Cities Transit in Pierre, South Dakota. Here is a small transit 
agency that started in 1998 with two vans and grew out of the 
human services side, coordinating rides between hospitals and 
social service agencies. But as the need grew, so, too, did the 
agency. River Cities now provides rides to assisted living 
facilities, every clinic in the region, and job shuttles to two 
major Native American reservations.
    I will also note that in the recent flooding in South 
Dakota it was that agency and their vans that actually 
evacuated senior citizens out of the flooding.
    The bottom line with this example in particular is that 
River Cities started as a specialized transportation provider 
for seniors. Now they serve the entire population. We think 
this is certainly what the future could look like if we have 
the vision and the leadership that we believe we need.
    I want to touch on our recommendations and certainly put 
our weight and force behind the renewal and the reauthorization 
of the surface transportation bill in Congress. We have four 
basically key areas that we recommend Congress look at in this 
particular field: coordination, innovation, flexibility, and 
funding.
    Number one, coordination. In the next authorization bill, 
Congress must provide funding and incentives for transit 
operators, nonprofit organizations, and local communities to 
continue to work toward better coordination, particularly 
through funding and prioritizing a one-stop shop approach known 
as mobility management.
    Number two, innovation. I mentioned earlier the mobility 
options of the future are not going to look entirely like the 
mobility options of the past if we are successful. Congress 
must do everything it can to incentivize bringing innovation to 
scale, leaning heavily on new technology, intelligent 
transportation solutions so the new generation of vans, 
shuttles, taxis are just a click away from your smartphone, 
particularly for providers in suburban and rural areas and 
small towns.
    Number three, flexibility. We believe Congress must ensure 
that State departments of transportation retain their current 
authority under SAFETEA-LU to ``flex'' a portion of their 
highway funds for transit projects and programs. Without this 
authority, transit operators will be forced to cut service 
during times of high gas prices when taxpayers need low-cost, 
affordable transportation options the most.
    And, number four, funding. The next authorization bill must 
increase dedicated funding for a variety of forms of public 
transportation, such as buses, trains, van pools, specialized 
transit, and ride sharing.
    In conclusion, what is good for the senior population is 
also good for everybody. It is easy to talk in terms of 
investments in buses, vans, and shuttles because that is what 
we do in the transportation community, transit capital. But 
this issue requires us to take a step back and think in terms 
of investing in people, in human capital. We can debate what a 
more robust network of public transportation, van pools, and 
ride sharing will cost, but we should only do so with a fuller 
understanding of what it will cost us to have seniors give up 
their independence and their ability to age in place and to 
move into assisted or institutionalized care. We need to have 
this debate with our eyes wide open, understanding the 
tremendous demographic shifts that are underway in this country 
and understanding both the economic and the social implications 
of what is at risk.
    Thank you again for the opportunity to testify. 
Transportation for America stands ready to continue to assist 
you and this Subcommittee as you move forward.
    Chairman Menendez. Thank you very much.
    Dr. Leary.

 STATEMENT OF MARY A. LEARY, ASSISTANT VICE PRESIDENT, EASTER 
                   SEALS TRANSPORTATION GROUP

    Ms. Leary. Good afternoon, Chairman Menendez. Thank you for 
the honor of being able to share some perspectives from our 
experiences at the Easter Seals Transportation Group on the 
very important topic for today's hearing. My remarks will focus 
upon the challenges we are seeing, the benefits of public 
transportation for the people we serve, and Easter Seals' 
recommendations for priorities in the reauthorization of 
Federal Transit Administration programs.
    These recommendations are based on community best 
practices. We manage and work with partners on FTA cooperative 
agreements that assist communities to increase mobility for 
older adults and people with disabilities. Our vision is 
embodied in what one young man with a disability told us: ``I 
want to live a spontaneous life.''
    Time and time again, the people that we serve echo this 
sentiment that access to transportation services is an 
essential lifeline. Yet it is a pivotal time in human services 
transportation for the 54 million people with disabilities and 
the 38 million adults over 65 in the United States. Demand for 
mobility options for people with disabilities of all ages is 
increasing, especially as we have more people over 75 and 80 
who often face later-in-life disabilities that impact their 
desire or ability to drive.
    Yet economic conditions are challenging our Nation's 
transit providers' ability to meet this demand. For many 
people, public transportation helps them live, learn, work, and 
play in the community. We know that one of the many barriers to 
employment for people with disabilities is access to reliable, 
affordable, and accessible transportation. As an example, only 
46 percent of people 21 to 64 living with disabilities are 
employed versus 84 percent for the same age group without 
disabilities.
    Aging and chronic conditions are also affected by 
transportation access with implications for health and 
wellness. The Centers for Disease Control recommends that we 
all walk at least 22 minutes a day, and studies find that when 
universal design and neighborhood design support transit, 
people of all ages walk more. And people with disabilities and 
older adults may not be able to keep doctors' appointments 
without transportation options.
    As our country last week celebrated the Olmstead decision, 
it reminded all of us of how far we have come with community-
based services for people with disabilities. It also reminds us 
of the necessity to keep investing in these systems that form 
the underpinning of both formal and informal long-term services 
and supports. But gaps remain. We hear many stories from 
transit agencies about the challenge of providing life-saving 
services like dialysis. Our hotline is getting more and more 
calls from people with disabilities about public transit cuts 
that have the potential to risk their ability to live 
independently and autonomously in the community, as you noted. 
But gaps can be filled.
    In one community where public transit had to cut routes, 
the mobility manager coordinated with a nonprofit service 
provider so that everyone who depended upon transportation 
could still get the rides they needed.
    Family caregivers themselves often face health declines 
after years of supporting a loved one with a chronic condition. 
Specialized transportation provided by programs like 5310, the 
New Freedom Initiative, or the Older Americans Act to respite 
services and adult day health centers may give a family 
caregiver a much-needed break to rejuvenate.
    This is not the time to further stress this incredibly 
important system or further reduce funding. So much good has 
been achieved in the last 20-plus years, and in our testimony 
we detailed a host of best practices across communities that 
are helping transit providers deliver needed services for 
people with disabilities and older adults. So based on those 
best practices, the Easter Seals has the following 
recommendations for priorities in the following 
reauthorization:
    Number one, we must continue to invest in transit so 
everyone has access to transportation options.
    Number two, nonprofit organizations must continue to have a 
role to coordinate and to help fill gaps.
    Number three, everyone needs to be at the planning table, 
especially people with disabilities and older adult riders who 
will be impacted by decisions.
    Four, mobility management should be widely expanded.
    And, last, communities need continued technical assistance 
and education to ensure that they can build and enhance 
accessible transportation for their oldest citizens and 
citizens with disabilities.
    We have submitted a number of community success stories in 
the written testimony that we hope will be useful for the 
Committee, but I would like to close with one of these stories 
from Arizona that highlights the ways they are building a 
robust, multimodal transportation system with significant input 
from their diverse stakeholders.
    A local metropolitan planning organization created a 
Transportation Ambassadors Program where they bring together a 
broad-based coalition every quarter to build relationships, 
educate providers, and find ways to leverage the collective 
transportation resources in the community.
    At a meeting with these ambassadors, one social worker 
discussed the difficulty in getting transportation for her 
service recipients living with mental disabilities so that 
everyone could problem-solve the issue. Their local city public 
transit provider, Valley Metro, showed us their state-of-the-
art indoor mobility center where not only do they do ADA 
transportation eligibility assessments for people with 
disabilities, but they have a travel training office just a 
step or a stroll away. This approach to helping a person with a 
disability get the right mobility resources not only enhances 
their quality of life, it also enhances the operational 
efficiencies in the system.
    On behalf of all the people we serve, thank you so very 
much for this really important opportunity, and I would be 
happy to answer any questions at any point.
    Chairman Menendez. Thank you very much, Dr. Leary.
    Mr. Fittante.

 STATEMENT OF STEVE FITTANTE, DIRECTOR, MIDDLESEX COUNTY AREA 
                            TRANSIT

    Mr. Fittante. Mr. Chairman, I am here today to focus on the 
need for new transit operating models to efficiently address 
the mobility needs for the growing elderly population, people 
with disabilities, and economically disadvantaged persons, 
particularly in areas with limited pubic transportation.
    Middlesex County, New Jersey, is a suburban county of 
800,000 population and is blessed with some of the best 
interstate commuter transportation in the Nation. My agency, 
the Middlesex County Area Transit, operates an 80-vehicle fleet 
of accessible vehicles transporting over 500,000 annual 
passenger trips and whose mission is to serve the local 
transportation needs of persons without access to an 
automobile, including older persons, people with disabilities, 
and economically disadvantaged.
    During the past two decades, urban and rural counties 
across the Nation have experienced rapid suburban population 
growth, and while we have seen the growth of commuter and urban 
transit options, local community transit growth in low-density 
areas has often lagged. In Middlesex County, over 150,000 new 
residents have been added since 1990. Not a single local New 
Jersey Transit fixed route bus has been added since 1990. The 
funding is just not there to meet non- mass transit levels of 
demand.
    The challenge is how to efficiently address the growing 
mobility demands of these populations in the context of the 
overall transit network, growing trip demand, and limited 
financial resources.
    Over the past 6 years, Middlesex County DOT has developed 
flexible fixed route bus services designed to serve both local 
destinations and to provide access to regional bus and rail 
services. These flex routes are supported by Federal and State 
categorical funding sources, targeting specific populations, 
but are also designed to serve all of these groups and the 
general public.
    The result has been a doubling of the efficiency of the 
overall MCAT system while enabling persons without cars to have 
access to a broader span of days and hours of service. These 
benefits accrue not only to our targeted funding populations 
but also to the general public.
    The power of affordable mobility is illustrated by a story 
about one of our passengers on one of our New Brunswick routes. 
A working mother of two young children, this individual would 
use an NJ Transit bus to access the NJ Transit NE Corridor rail 
service between New Brunswick and Princeton. But between the 
bus stop and the daycare center, located 2 miles away at the 
rail station, she had to take a taxi in the morning and evening 
costing her $14 per day. When our flex route service began 
operating in 2007, she was able to replace the $14 round trip 
taxi fare with a $2 bus fare, saving her over $200 per month. 
Can you imagine the kind of impact that this would have on a 
moderate-income household?
    This same route serves dozens of senior citizens and people 
with disabilities, providing a range of access to services and 
employment opportunities as well as regional bus and rail.
    While many community transit operators struggle with 
capital vehicle replacements, today the common denominator for 
most systems is the erosion of operating funds.
    Recent State funding reductions not only impact the 
availability of operating funds for transportation, but many 
local grant applicants cannot provide the required match for 
Federal grants, particularly USDOT operating grants, including 
Job Access and Reverse Commute, New Freedom, and the Congestion 
Mitigation and Air Quality flex funding for transit.
    In New Jersey, only 3 of 21 county coordinated systems 
applied for Federal operating funds under New Freedom and CMAQ 
in Federal fiscal year 2010. The barrier is the inability to 
come up with the 50-percent matching funds.
    Many counties nationally who desperately need operating 
funds to meet increasing demands are facing the same issue, 
applying for capital and mobility management projects which 
require only a 20-percent match.
    Beyond a crisis of funding facing community transit, there 
is a need for clearer regulation and coordination requirements.
    Agencies are helping themselves by developing new sources 
of funding including advertising revenue, moving from donations 
to mandatory fares, and enlisting corporate contributions. 
However, there is a need to provide incentives to encourage 
these community transit systems to better coordinate their 
services through feeder service to traditional bus and rail 
transit where appropriate.
    There are three specific areas where I think Federal 
changes could assist community transit operators in meeting 
this mission:
    First, strengthen requirements for coordination of service 
delivery between smaller community transit operators and large 
urban transportation authorities, including the use of funding 
to purchase transit tickets.
    Second, consider a change in the Federal match requirement 
for FTA operating funds to create equity between capital, 
administration, and operating funding requirements, and looking 
at the CMAQ funding to extend the 3-year limit on the use of 
that for services that meet threshold requirements.
    Third, require the Centers for Medicaid and Medicare 
Services to issue an opinion on whether antikickback 
legislation applies to the funding of local community 
transportation by kidney dialysis centers or does it qualify as 
a safe harbor.
    As outlined today, the challenge of unprecedented growth in 
nonauto demand from these populations requires that we leverage 
the investment in our traditional transit systems by expanding 
the targeted services for these populations. A 30-percent 
reduction in Federal funding for these programs would eliminate 
the progress made in establishing more efficient systems that 
are positioned to address this growth in the future.
    I thank you for the opportunity to raise these issues as 
you tackle the challenges of providing Federal support for 
mobility.
    Chairman Menendez. Thank you very much.
    Mr. O'Toole.

   STATEMENT OF RANDAL O'TOOLE, SENIOR FELLOW, CATO INSTITUTE

    Mr. O'Toole. Thank you. As you noted, I testified here last 
year, and somehow I sensed I was not able to quite persuade 
everybody of my point of view. So I guess I am here to take 
another stab at it.
    As I mentioned last year, I think our transit systems are 
broken. I think the breakage is so severe that they cannot be 
fixed just by throwing money at them. Over the past 40 years, 
we have thrown hundreds of billions of dollars at transit, 
public funds at transit, and yet per capita transit ridership 
in our urban areas today is no greater than it was in 1970. All 
that money has essentially produced nothing.
    One of the reasons for that is that transit has thinned 
itself out. Instead of concentrating in the core areas where 
private transit was providing excellent service before it was 
taken over by the public about 40 years ago, instead of 
concentrating in those core areas, the FTA has been funding 
more and more transit to more and more suburban and rural areas 
and even has a target of funding transit in 75 percent of rural 
counties.
    So we come to what I think is the crux of the issue here. 
Should transit come to the people or should people come to 
transit? The Transportation for America report says that people 
should be allowed to age in place if they want to. Well, I am 
not so certain of that. Americans move a dozen times in their 
lifetimes. We move when we leave home and go to school or go to 
work. We move when our job changes. We move when we want to 
have our children go to a better school. We move all the time 
for all kinds of reasons, and at almost no stage of life does 
the Government step in and say, ``You do not have to move this 
time. We will pay to subsidize your commute. We will pay to 
subsidize your children to go across town to the school you 
want them to go to.''
    And suddenly for seniors we are going to step in and say, 
``Yes, we are going to subsidize you so that you do not have to 
move.'' Why are seniors being singled out? I think that is 
going to be especially objectionable in the future when seniors 
are going to be taking so much of our national resources and 
the people who are working are going to be having to pay for 
it.
    We have another problem. Seniors do not really depend on 
transit all that much. The average American rides transit for 
less than 1 percent of all their travel, and for seniors it is 
an even smaller percentage of their travel, about two-thirds of 
a percentage of all their travel.
    Now, when seniors are no longer able to drive, then they 
become more dependent on transit, and they enter what we might 
call the disabled category. People who cannot drive are 
eligible for disabled transit services, what is sometimes 
called paratransit or demand-responsive transit. And, 
unfortunately, our transit agencies have picked very expensive 
means of providing transit for these people.
    The average cost of demand-responsive transit is $3.80 a 
passenger mile. That compares to 35 cent a vehicle mile for 
driving, and if you divide that by the number of people in the 
car, it is that much less per passenger mile. It compares with 
less than $1 a passenger mile for ordinary transit.
    The reason why disabled transit costs so much is because 
the transit agencies limit it to disabled riders. It is a door-
to-door service, but there is such a small market of disabled 
riders that very few people are taking advantage of the 
service, so they are keeping a lot of vehicles on standby 
waiting for somebody to call up and pick them up.
    If we can expand this service so that anybody could use it, 
it would be a lot cheaper. We know that is true. SuperShuttle 
and Coach USA and a number of other companies provide similar 
services for airports. They will pick you up at your door, at 
your hotel, wherever you are, take you to the airport, pick you 
up at the airport and take you to wherever you want to go, and 
the average cost is about or less than the cost of regular 
transit--in other words, about one-fourth of the cost that 
transit agencies are spending on disabled transit.
    So if we could open up this paratransit to all riders, we 
could greatly reduce the cost. Why don't we do that? Basically 
the taxi lobby. We need to either buy out the taxi franchises 
or open up the taxi market so that shared-taxi service will be 
available to anyone. I think that means really a privatized 
service. I think a private operator will be able to do this for 
much cheaper than the public.
    Today the Cato Institute is releasing a report on private 
inter-city buses that show that they are faster, more frequent, 
and less expensive than Amtrak in dozens of markets across the 
country.
    Now, I just want to say one more thing. Last week the 
Nevada Legislature passed a law directing the State department 
of transportation to provide for driverless vehicles in the 
State of Nevada. Google has operated driverless cars over 
140,000 miles in California on city streets and on highways. 
The only accident was when somebody rear-ended a vehicle at a 
stop light.
    Last week Volkswagen announced that it would start selling 
a semi-driverless car, a car that will be able to drive itself 
on the highway but not on city streets, within the next year or 
two. Once driverless vehicles are available, we will not need 
to worry about special vehicles for disabled or senior citizens 
because it will not matter how old you are, how young you are, 
what your physical capabilities are, you will be able to get to 
where you are going in a driverless vehicle, and within 15 to 
20 years, most of the vehicles on the road will be driverless.
    Thank you.
    Chairman Menendez. Thank you. So there we have it, an array 
of views. Let me start off the questioning.
    Mr. Hammond, skeptics think that seniors and people with 
disabilities do not use public transportation. As the president 
of AARP, which represents millions of older adults in the 
United States, do your members use public transportation?
    Mr. Hammond. Yes, they do.
    Chairman Menendez. If you could put your microphone on, 
that would be helpful.
    Mr. Hammond. Yes, sir, they do. Our own analysis shows that 
when we control for adults and seniors with no transit access, 
seniors ride public transportation on a per capita basis 80 
percent as much as their nonsenior counterparts. And I can tell 
you in my own area, Shore Transit, which operates as a not-for-
profit, without that service and without the funding that it 
receives from Federal, State, and local sources, many of our 
seniors would be in severe difficulty.
    Chairman Menendez. Do you believe that the private sector 
and nonprofits alone address the mobility of older Americans?
    Mr. Hammond. I am sorry. Could you----
    Chairman Menendez. Do you believe that the private sector 
and nonprofits alone address the mobility of older Americans?
    Mr. Hammond. No, sir, I do not. I think the Government has 
a responsibility there.
    Chairman Menendez. Mr. Corless, your report indicates that 
as we try to meet the transportation needs of seniors, we 
should be concentrating on expanding fixed-route service, such 
as bus or rail, rather than just expand paratransit service. 
Why do you think that is the best strategy?
    Mr. Corless. Well, as my oral testimony reflected, we 
believe it has got to be a mix. I think, very importantly, 
though, fixed-route transit, where it makes sense, is some of 
the most cost-effective way to provide mobility. But we have a 
problem here about actually how do we provide mobility in low-
density areas where both people are aging and, frankly, there 
is going to be even more mobility needs in the future, and I 
think that is where we have to get innovative. That is where we 
have to use technology and actually complement fixed-route 
service, a more robust network of fixed-route service.
    Chairman Menendez. So you made a point that I found 
interesting during the course of your oral presentation. You 
said, let us look at this also in terms of human capital, as 
well, not just the question of transportation capital. It seems 
to me when older adults face severe transportation constraints, 
that their only alternative very often is to be in federally 
supported group living arrangements. That outcome can not only 
lower one's standard of living but also can cost taxpayers more 
money. Is that not part of what we should be looking at in this 
balance and equation and determining what is the cost-benefit 
ratio here?
    Mr. Corless. Absolutely. And to be clear, we wrote our 
report about aging in place because we believe the research all 
shows that is what the vast majority of American baby boomers 
and seniors want to do. It does not mean that everybody is 
going to do it. It does not mean we should not be providing 
more senior housing close in and providing more options for 
where people live. But it really is--it is going to take a 
variety of these kinds of approaches.
    Chairman Menendez. Dr. Leary, there is nearly a generation 
who does not know what it is to live in an America without the 
Americans With Disabilities Act, so if you could take a moment 
to describe a day in the life of a person with disabilities 
before the passage of the ADA and give the Committee a sense of 
how far we have come today and the most important priorities 
related to transportation in the context of that person's life.
    Ms. Leary. Well, in a day in the life of a person with a 
disability prior to the Americans with Disabilities Act, 
probably be underscored by what happened that helped to 
stimulate the Americans with Disabilities Act and 
transportation activities that actually created Easter Seals 
Project action, where people with disabilities could not 
utilize transportation and were chaining themselves to fences 
around public transportation arenas because of that, to try to 
increase the awareness. People with disabilities were in 
institutions. The Olmstead decision was critical in terms of 
ensuring that people with disabilities were not being forced in 
a restricted environment that they did not need to be in.
    So, I mean, just imagine a world where people are living in 
institutions that do not need to be in institutions rather than 
living in the community. Think about people like Stephen 
Hawking and the many, many contributions that people with 
disabilities can now make in our country because we have a 
public transportation system.
    Richard Devylder, who was the first ever senior adviser, 
was a Presidential appointee, first ever, in the Department of 
Transportation for accessible transportation, he has a fabulous 
video that is on the Web. I would say, Google Richard Devylder, 
and he shows you a day in his life today and it is a very 
autonomous life. It is a very independent life and there are 
tremendous capabilities here.
    And so that is why, really, the top two things that we want 
to say is that tremendous gains have been made. As a matter of 
fact, when we look at the Livability and Sustainability 
Initiative, we really think that the housing community has so 
much to learn from the transportation community, and the 
thousands of people from the transportation community, transit 
providers that we talk to, they are champions now for people 
with disabilities and work very closely with them in their 
communities.
    So coordinating where all the stakeholders are at the 
table, public transit, nonprofit organizations, people with 
disabilities affected by the decisions, older adults affected 
by the decisions, I mean, that is what we really, really have 
to have. And great innovations are occurring all across our 
country. Americans are innovative, and it is amazing when we 
look at the best practices that are happening around the 
country because of this bridging between the public, the 
private, and the nonprofit community. It really, really does 
work.
    Chairman Menendez. Thank you.
    Mr. Fittante, let me ask you, some suggest that the 
coordination administering the three separate programs, the 
elderly individuals and individuals with disabilities and New 
Freedom and Job Access and Reverse Commute formula, that it is 
difficult to administer the three separate programs while 
coordinating the services they offer. From your perspective in 
the field, what would you say?
    Mr. Fittante. I think there are a lot of opportunities for 
being able to bring together the different populations that are 
served by these individual funding sources and to be able to 
integrate the use of those funding sources and, as Randal 
brought up, actually open these services to the general public. 
And certainly the principle of coordination that the Federal 
Government has operated under with a lot of our Federal funding 
sources has been as long as the individual population served by 
that categorical funding is not displaced, that those empty 
seats can be used to provide service to other people.
    With the kind of demand that we are going to see over the 
next 20 years, I think it is incumbent on us to develop 
services that are going to extend the reach of traditional bus 
and rail transit and also agglomerate these different 
populations so that we are providing service to people 
traveling in the same direction at the same time.
    Chairman Menendez. Can that be done strictly by the private 
sector?
    Mr. Fittante. I do not think it can be done strictly by the 
private sector. I think the private sector does have a role, 
and certainly organizations like mine are contracting with the 
private sector both in terms of shared ride taxi and bus 
service to use the private sector where their services 
geographically are appropriate to provide service.
    Chairman Menendez. Is not one of the challenges, is that 
when you have a private entity that is in contract for your 
specific purposes, that they pick the routes that offer the 
greatest profitability?
    Mr. Fittante. Well, the term ``cherry picking'' does apply, 
but in many cases, that is not necessarily a bad thing if you 
are able to provide that service most efficiently with the 
private sector company in that particular service context.
    Chairman Menendez. Oh, absolutely, except for the fact that 
if you want a greater opportunity--if we only have routes that 
provide for the greatest profitability, that does not mean that 
everybody gets access.
    Mr. Fittante. That is absolutely true.
    Chairman Menendez. I know that my colleague has got a 
hearing soon, so I will turn to Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chair, and thank 
you all for testifying. It is very helpful in the context of 
the discussions we are having up here on how to address surface 
transportation, including metropolitan transit district 
strategies.
    Certainly in my home State of Oregon, we do a lot of 
wrestling with what strategies will most affect pollution, most 
affect congestion, how that translates into lost work time, 
healthiness, happiness, pharmacy, and so on and so forth. 
Indeed, there is a tool sometimes referred to as strategic 
scenario-based planning where communities deliberately set out 
to establish, here are the things that are our goals, and those 
goals might be in the context of pollution, maximum use of the 
taxpayers' dollars, best use, congestion and safety and public 
health and so forth, and create a baseline of those standards 
and then run a series of scenarios through those to see kind of 
their impact, if you will.
    And that type of strategic scenario-based planning has been 
used in cities across this country and almost always ends up 
saving money and also allows people to have a coherent, 
intelligent discussion. So one person says, let us add a lane 
of freeway, and somebody else says, let us do streetcars, and 
somebody else says we had better invest in the bridges, but at 
least you have something to weigh it against.
    I just wanted to ask, and I think, Mr. Corless, you 
referred to the importance of planning in your testimony, are 
you familiar with that strategy? What do you think of the 
results so far? Is it something we should advocate for wider 
employment?
    Mr. Corless. Senator, thank you. In my opening statement, I 
mentioned I was a former transportation planner who not only 
oversaw a coordinated human services-public transportation 
plan, but also participated in such a sort of a scenario-based 
strategic planning effort. I can tell you, right now, the way 
that we typically plan over the long term in transportation is 
we staple projects together. That is sort of the business as 
usual approach. That wastes money. It leads to lack of 
coordination between not only human services and public 
transportation, but transportation and housing and land use, 
and I think we need to take a page out of the private sector 
playbook and think, as you say, more strategically.
    So, with quantitative performance measures, where do we 
want to be in 20 years? When places like this, the State of 
Utah, have undertaken this kind of approach, they have found 
not only do they get more synergy between their development 
patterns, jobs housing, transportation, but they save taxpayer 
money, they save infrastructure costs, and they actually get 
at, I think, one of the things perhaps we on this panel could 
all agree to, which is more housing opportunities provided by 
the private sector in places that actually have lower 
transportation costs.
    Senator Merkley. Is anybody else familiar with that or 
would like to weigh in on this? Mr. Fittante.
    Mr. Fittante. Yes. I think the human service-transportation 
planning process that has been set up for regional areas over 
the last seven to 8 years has given us opportunities to begin 
to set some standards for how we go about expanding 
transportation and also to go back and critically look at how 
we can make adjustments to the transportation services that are 
being provided and how they integrate with the overall network. 
And I think that sort of holistic approach to looking at how 
the transportation relates to the overall network, I think is 
one of the things that has come out of that planing process.
    Senator Merkley. Yes, Mr. O'Toole.
    Mr. O'Toole. I have spent the last 35 years of my life 
studying Government strategic planning----
    Chairman Menendez. Mr. O'Toole, if you would put your 
microphone on.
    Mr. O'Toole. I thought I did, but I guess I turned it off. 
Sorry.
    I spent the last 35 years of my life studying strategic 
planning by Government agencies and came to the reluctant 
conclusion that strategic planning does not work because 
planning does not change the incentives faced by the agencies 
and the constituency groups of those agencies. In order to 
actually have substantive change, you need to change those 
incentives. If you change the incentives and you get the 
incentives right, then you do not need the plan because people 
will do the right thing. That is, you do not need to have 
broad-range strategic planning. You still need, of course, to 
have mission-specific planning on exactly what you are doing, 
but not some kind of broad-based long-range plan.
    So rather than focusing on strategic planning, I think we 
would be much better off focusing on figuring out what are the 
incentives that are leading to bad outcomes and how do we fix 
those incentives to produce the outcomes we think are the right 
ones.
    Senator Merkley. You know, one of the interesting things 
about the discussion about this type of scenario planning is 
because it has created a discussion around what are the goals 
of the community. It has brought it into the public light, if 
you will, and enabled people with many different points of view 
to weigh in on what they think the objectives of the planning 
should be. That sort of transparency has sometimes worked in 
ways that I think might be compatible with what you are 
referring to, which is you are making reference to incentives 
that perhaps are within certain bureaucracies and so forth 
driving the process. But having a public discussion with kind 
of the goals laid out on the table, would that not help to some 
degree?
    Mr. O'Toole. Well, as you know, I am from Oregon, too, and 
I have been watching with great despair as the city of Portland 
says, we do not have enough money to replace the Sellwood 
Bridge, even though it is the most heavily used two-lane bridge 
in Oregon. It has been shut down to buses and truck traffic for 
10 years and is falling down. But we do have enough money to 
build a light rail line that costs five times as much as that 
bridge and that goes to a county that has voted against light 
rail every time it has been on the ballot and has adequate bus 
service today for a lot less expensive than light rail.
    And that is the result of that kind of strategic planning 
that was hijacked by special interest groups that said, we are 
going to make a lot more profits if they build light rail than 
if they just rebuild a bridge that is fairly cheap to build and 
yet is much more vital and will carry a lot more people across 
that river than the light rail bridge they want to build 
instead. What, are they breaking ground next week on the light 
rail bridge? It is ridiculous.
    I do not think you are going to agree with the point of 
view, but that is the point of view I see and that a lot of 
other people see in Portland. People have voted against light 
rail the last time it was on the ballot, and yet we see the 
city saying, oh, we have got this process. People want to have 
light rail. They do not. They do not want to spend the money 
and they do want to have that Sellwood Bridge replaced.
    Senator Merkley. And we do appreciate your bringing your 
perspectives back time and again.
    Mr. Corless. Thank you.
    Senator Merkley. Thank you. Thank you for sharing that.
    One of the strategies that I think more communities are 
taking a look at is bus rapid transit, and we have a community, 
Springfield/Eugene, that is looking at that as an alternative 
to light rail in terms of the infrastructure expenses and so 
forth. Do any of you have any insights on kind of how that fits 
into the spectrum? Mr. O'Toole.
    Mr. O'Toole. Well, the Eugene bus rapid transit is 
interesting because they spent a lot of money building a 
special bus lane for it, but they built it so narrow that the 
buses cannot drive any faster than when they were driving in 
lanes with mixed traffic. And so the people who ride the bus do 
not save any time, but they also spent a lot of money buying 
million-dollar buses instead of their $300,000 buses that they 
had been running before, and so it looks fast. It is 
streamlined. And it turns out, 80 percent of the riders think 
they are getting there faster than they were before just 
because it is a fancy-looking bus and it is not any faster, and 
the ridership went up 120 percent.
    So what that says to me is that FTA Administrator Peter 
Rogoff's story, which is that paint is cheaper than trains, is 
really true. Just paint your buses a fancy color, run them and 
say they are fast--they do not even have to be any faster--and 
you will get a lot more ridership, and maybe that is the way to 
really improve transit cost effectively.
    Senator Merkley. Dr. Leary.
    Ms. Leary. We have actually done a study on bus rapid 
transit and it is some perspectives to assisting people with 
disabilities, and BRT can be a very, very cost effective way to 
reduce congestion and get people to where they need to go 
faster through its methodology. So as long as it is structured 
so that people with disabilities also have access to it, it can 
be really very effective and a very fast way to implement a 
system that can add a lot of value in the community.
    And I also wanted to just comment on your strategic 
planning perspective, because this whole planning concept, the 
plan itself is not the key. The planning is. And dynamic 
planning, after 18 years--I was in the private sector for 18 
years. If you did not plan, you could never get anywhere in 
terms of where you needed to be. And so one of the things I 
think that has been really interesting that has been done 
through legislation over a number of years is increasing 
outcomes and program evaluation and metrics and indicators in 
the Federal sector and the public sector so that we all better 
understand how to be able to show the results of our programs.
    And I think there is a hidden jewel that public 
transportation has in the scenario planning perspective that we 
can learn from the public health community. The American Public 
Health Association today actually has someone who is looking at 
the intersection between health and transportation. Seventy-
five percent of health care costs are for addressing chronic 
illness. We have to figure out a way in this country to help 
people stay healthier.
    The hidden jewel is there is an ROI, return on investment, 
perspective around health and wellness and investments in 
public transportation that help keep everyone healthier, and it 
is a lot less expensive for somebody to stay in the community, 
and an older adult, if by the time you are 75 you can stay in 
your own home, you have a much higher potential of being able 
to live independently. If we take somebody who has mild 
dementia and move them out of their house into a place that 
they do not understand, their trajectory can be like this 
[indicating], whereas normally, trajectories with illnesses 
nowadays are more like this, this, this [indicating], as you go 
down.
    So I think scenario planning as it relates to demographics, 
as it relates to each community's uniqueness, as it relates to 
the cross-functional benefits of these investments, I think can 
be really useful to giving people a much broader perspective 
about the value here instead of looking at it in a very narrow 
way.
    Senator Merkley. Thank you all very much. I have to preside 
and I have to dash and I apologize, Mr. Chair, but thank you 
very much. This is very helpful.
    Chairman Menendez. Thank you, Senator Merkley.
    I just have a couple of final questions and then we will 
let this panel leave.
    Mr. Corless, the Ryan budget that passed the House calls 
for a 30 percent cut for surface transportation. What would it 
mean for senior transportation and transportation to the 
disabled if we were to cut by 30 percent?
    Mr. Corless. Clearly, even with our most recent report, a 
cut of that magnitude would be devastating. Let us not forget, 
seniors took a billion transit trips in 2010. That actually 
went up by 55 percent from the beginning of the decade. And 
exactly, as I was saying earlier, the wrong direction to head, 
not that we can do fixed-route transit everywhere, but we need 
to invest more and we need to overlay that with a much smarter, 
more mobile network in some of the suburban communities.
    Chairman Menendez. Dr. Leary, I want to follow on, I think, 
a bit to what you were responding to Senator Merkley. When 
assessing the success of a program that is targeted to serve 
people with disabilities, what should we use as a measure of 
success? There is a lot of talk about performance measures to 
ensure sufficiency and accountability in the delivery of 
services. What kind of transportation measures would be 
appropriate for tracking the success of programs designed to 
serve people with disabilities? And maybe, Mr. Fittante, you 
might have some views on that, as well.
    Ms. Leary. Well, I would say there would be two, one that 
would directly relate to people with disabilities and one that 
would primarily relate to the public transportation system. One 
of the really big gains that has resulted from 20-plus years 
since the Americans with Disabilities Act is the accessibility 
of the fixed-route systems and public transit. That is a 
significant savings for public transit and it is a significant 
benefit for a person with a disability, because what you do not 
want to do--most of us wake up in the morning, we usually know 
where we are going to go, but even if we do not, we get in our 
cars and we drive there.
    If you are a person with a disability, you have to be able 
to navigate across all these different multimodal systems that 
may or may not be connected. There may not be a way to do easy 
trip planning. And if you go county to county, it is very 
difficult. If we can fix things like that and make it easier 
for people with disabilities to get around, the number one 
indicator is that indicator for jobs. I mean, the jobs 
indicator is half of what it should be. We have a tremendous 
inequity in not being able to provide ways that talented people 
with disabilities could contribute to the businesses in their 
communities. So that is one way.
    And then the fixed-route differences, and to what extent is 
a public transportation program accessible? To what extent can 
a person with a disability avoid having to use the special bus, 
because they do not want to use that cutaway any more than 
people want them to use it. They want to use a standard bus. 
And an older adult does not want to get on that cutaway bus, 
either. That older adult wants to be able to get on the system.
    The biggest barrier we sometimes have are caregivers, or if 
it is a youth with a disability, parents worrying about their 
ability to migrate the system. But in New York City, I had a 
chance to go to the 50th anniversary of a travel training 
program where youth with disabilities and parents talked about 
how excited they were to see--and even the fear that engendered 
in having the idea of their son or daughter out in New York by 
themselves, but then the tremendous feeling that they got when 
they could go by themselves and go to a job or they could live 
on their own.
    So there are just so many gains that we can make. So 
employment, and then also reduced cost by ensuring a higher 
accessibility within the public transportation system 
themselves might be a good one. The one that we would not want 
to use is quality of life, because that is kind of a dangerous 
indicator. The disability community finds it a little suspect 
to use those terms, so we try to stay away from it as an 
indicator, but we still do like to talk about it, particularly 
as it relates to older adults.
    Mr. Fittante. Mr. Chairman, I think one of the things that 
we found in working with individuals with disabilities in using 
our services is that, as Mary alluded to, many individuals 
would like to be able to use regular route services, whether 
they be bus or rail, because of the frequency of service and 
the availability of choice. And I think in many cases, while 
our complementary paratransit services since the inception of 
ADA have afforded a lot of opportunity for being able to have 
new mobility options, I think they also tend to limit people's 
choices and there is, I think, some opportunity here for better 
integration between services that are provided from the curb or 
the door to integrate with the fixed-route transportation 
system. And I think that is something that we really need to 
focus on more.
    Our system, for instance, actually purchases bus and rail 
tickets where it is most appropriate, so that if an individual 
is travel trained and is able to use the fixed-route bus and 
rail network, we provide feeder service to that bus or rail 
service and then provide them a lower-cost service. So I do not 
think effectiveness and efficiency need to be mutually 
exclusive.
    Chairman Menendez. Very good. Mr. O'Toole, I read your 
written testimony and you cite your parents as an example of 
spouses caring for one another when one spouse loses the 
ability to drive, and I think that is an example that many, 
many families would share experiences with and would emulate.
    But what if a senior does not have a family member to rely 
on, or the resources to take a taxi, or the resources to move 
where there are transit services? Should we simply condemn 
these people to Government-supported group homes?
    Mr. O'Toole. Well, I do not think group homes is 
necessarily the only alternative. First of all, they can move. 
I do not know why they would not have the resources to move. If 
they have income, if they have assets, they can exchange their 
assets for other assets so they can move into a place that has 
better transit service.
    I think the argument that was made previously about how 
people with mild dementia have a hard time adapting to new 
circumstances is a valid argument. But they would have just as 
hard a time adapting to transferring from driving their car to 
riding transit and might even have a more severe time at that.
    I think the real solution is to promote the idea of 
driverless cars. Accelerate the adoption of driverless cars. We 
have the technology for driverless cars today. It works. It is 
safer. It is faster. It is cheaper than transit and than 
ordinary driving.
    Chairman Menendez. Would you use Government money to do 
that?
    Mr. O'Toole. I do not think we need to use Government 
money. I think we need to have some Government coordination. I 
think the automobile companies are reluctant to make driverless 
cars.
    Chairman Menendez. So how do you get the private sector to 
do that if there is no Government incentive, no stimulus, no 
tax directive? How would you do that?
    Mr. O'Toole. I think the States are going to do it. It is 
obviously--the States are starting to do it with Nevada passing 
legislation legalizing driverless cars, and that is the first 
step. Driverless cars have to be legal. Right now, they are not 
legal. A person has to be operating each car.
    The second step is to change liability laws. A number of 
States have no-fault insurance which is very favorable for 
driverless cars, but a number of other States do not have no-
fault insurance, and I think until all States adopt no-fault 
insurance, then automobile manufacturers are going to be 
reluctant to have driverless cars.
    So once we remove those institutional barriers--we will not 
have to spend any money at it--driverless cars will happen. 
Driverless cars will become available. And once they are 
available, they will serve the needs of seniors and disabled 
people for a lot less money than our current transit system.
    Chairman Menendez. In your response to my question about 
individuals, you presume everybody has assets, but there are 
millions of Americans whose only asset is their Social Security 
check every month.
    Mr. O'Toole. All right. So, where are they?
    Chairman Menendez. What do we do with that universe?
    Mr. O'Toole. You are saying they cannot move because they 
do not have enough income, and that does not make sense to me. 
When people leave home without a job, when they go to school, 
they do not have income, but they manage to move and they find 
themselves a place to live in their new location. They find 
themselves a place to live when they are looking for a job when 
they get out of school. They manage to move, and I do not 
understand why, somehow, when you are 65, you can no longer 
move.
    Chairman Menendez. I did not say you could not move, I 
just--it is the question of do you have the assets to move. 
Moving costs money at the end of the day. It depends where you 
are moving to, how far you are moving, what are the conditions 
you are moving to. I mean, it costs. The last time I checked, 
even with having friends help me move, it costs money.
    Let me ask you this. I am a little surprised that your 
written testimony is especially critical of transit funding in 
rural communities. By way of example, the Lower Savannah 
Council of Governments in South Carolina has been a leader in 
its Aging and Disability Resource Center, which links older 
adults and adults with physical disabilities to services that 
support their ability to live at home. In 2001, South Carolina 
received one of the first Real Choice System Change Grants from 
the Centers for Medicare and Medicaid Services, and the program 
has expanded since 2001. Do you believe this nationally 
recognized program in South Carolina should have the Government 
funding cut?
    Mr. O'Toole. Yes, I do. I do not agree that every county in 
the country deserves to have Government funding for transit. 
When I decided to locate in the community of 140 people that I 
live in that is 15 miles away from a city of 1,000 people and 
40 miles away from a city of 75,000 people, I knew I was in 
what is sometimes referred to as a food desert. I was 15 miles 
away from a grocery store. I was even more miles away from a 
transit service. I knew there were tradeoffs in moving there 
and I accepted those tradeoffs. Just because I live there, I do 
not think that the Government owes me a supermarket any more 
than it owes me a transit system, and people----
    Chairman Menendez. So for the 8.5 million transit trips 
taken in South Carolina in 2009, you would think that those 
riders should basically have to fend for themselves?
    Mr. O'Toole. I think they would have to look for 
alternatives, and I think those alternatives might include some 
kind of private system, and I think those private systems will 
grow, and in the long run, I think we are going to see people 
using driverless cars a lot more and this whole transit debate 
will be rendered moot.
    Chairman Menendez. All right. Well, OK. I appreciate all of 
our witnesses. This will conclude this hearing on transit for 
older adults and people with disabilities. I think there were 
some very significant and insightful suggestions that the 
Committee will want to consider as we move toward a 
reauthorization. I want to thank the witnesses for 
participating.
    The record will remain open for 1 week to allow Senators 
the chance to ask follow-up questions in writing, and we urge 
you, if you get one of those questions, to be as expeditious as 
you can in responding for the Committee's work to move forward.
    With that, this hearing comes to a close. Thank you.
    [Whereupon, at 3:05 p.m., the hearing was adjourned.]
    [Prepared statements and additional material supplied for 
the record follow:]
                  PREPARED STATEMENT OF W. LEE HAMMOND
           President, American Association of Retired Persons
                             June 29, 2011
    Good afternoon, Chairman Menendez and other distinguished Members 
of the Subcommittee. My name is Lee Hammond and I serve as President of 
AARP. I appreciate the opportunity to testify before you this afternoon 
and I'd like to thank the Subcommittee for holding this hearing on a 
topic critical to millions of older Americans--how they or a family 
member will maintain their independence as they step away from the 
wheel of their car.
    Transportation provides the access that is fundamental to achieving 
the health and economic security goals that led Ethel Percy Andrus to 
create AARP--whether getting to a doctor's appointment or to a job.
Demographic Shift
    The United States is a rapidly aging Nation. The leading edge of 
the baby boom generation reached age 65 this year. By 2030, nearly 
every fifth person in the United States will be age 65 and older. In 
the next two decades, the fastest growing age segment will be persons 
age 85 and older, reaching approximately 8.7 million by the year 2030. 
The baby boom generation has been accustomed to a high level of 
mobility and will expect that level of mobility to continue into their 
later years. Finding ways to ensure mobility as the Nation ages is a 
serious challenge that families are facing today and one for which 
policy makers must help find solutions.
Quality of Life
    Transportation is not an end in and of itself. Rather, it is a 
means of connecting us with the economic, social, cultural, and civic 
activities which together help define our quality of life. It is also 
essential to maintaining independence, freedom, emotional well-being, 
and to staying connected to the community. Beyond its impact on an 
individual level, transportation investment has wide-ranging impacts on 
society and the economy. The design and placement of roads, transit 
lines, pedestrian walkways, and bicycle paths can help create vibrant 
and economically vital communities that support successful aging.
Aging in Place
    Our research indicates that nearly 90 percent of persons age 50 and 
above prefer to remain in their homes as they age; and 95 percent 
prefer to remain in their communities. About nine out of ten Americans 
age 60 and above stayed in the same home or nearby in the same county 
in the 5 years before the 2000 Census was conducted. When older persons 
do move, they tend to move within the same county.
    This phenomenon of aging in place is occurring to a large degree in 
the suburbs, to which returning servicemen flocked after World War II, 
and which continue to be home to their boomer children. The Federal 
Government encouraged this movement beyond urban centers through its 
transportation and housing policies, and we are seeing the effects 50 
years later. Over half of individuals age 50 and above now live in the 
suburbs, resulting in a mobility mismatch between communities designed 
almost exclusively for the automobile and a growing population that 
does not drive.
    In fact, a recent study by Transportation for America, ``Aging in 
Place: Stuck Without Options,'' finds that by 2015, more than 15.5 
million Americans age 65 and older will live in communities where 
public transportation service is poor or nonexistent. This will include 
the first edge of the baby boom generation, 83.5 percent of whom want 
to stay in their homes for as long as possible. The suburbs are 
becoming grayer as four in ten suburban residents are age 45 and older, 
up from 34 percent 10 years ago. In contrast, only 35 percent of city 
dwellers are in that age group.
    A second report released this month by n4a, the National 
Association of Area Agencies on Aging, finds that local governments are 
not prepared to address the needs of their aging populations. When 
asked to name the top challenges they face in meeting the needs of 
older adults, transportation ranked second after financial concerns.
Nondrivers: Influence of Public Transportation and Community Design on 
        Mobility
    The dispersed location of housing, shops, employment, and services 
in suburban and rural locations can severely limit travel for the 
nearly eight million nondrivers age 65 and over in the U.S., leading to 
dependence on others for basic travel needs. The number of older 
nondrivers is increasing, and has grown by over one million from 2001 
to 2009. Older individuals most often turn to family and friends for 
rides when they no longer drive themselves.
    A picture of the older nondriver is emerging. Nondrivers are more 
likely to be women. They are also more likely to be ethnic minorities 
(47 percent of nondrivers). Most nondrivers (61 percent) have a medical 
condition that makes it hard to travel, and about a third live alone. 
Income is another key factor--the median household income for female 
nondrivers is between $20,000 and $25,000, at least $30,000 less than 
that of female drivers.
    These characteristics were reflected in a Government Accountability 
Office (GAO) report from earlier this year that reviewed measurement of 
unmet need in Older Americans Act programs. In addition to the 
characteristics cited above, it found that an estimated 41 percent of 
those age 80 and above were likely to need transportation services, 
compared to just 12 percent of those ages 65 through 69. In addition, 
an estimated 40 percent of those with less than a high school degree 
were likely to need transportation services compared to just 10 percent 
of those with college degrees. Finally, an estimated 54 percent of 
Medicaid recipients were likely to need services, compared to 18 
percent of those who did not receive Medicaid.
    For some older people, the economics of car ownership make driving 
prohibitive. AAA pegs the cost of owning the typical sedan at $8,500 
per year, or about $5,000 for a small sedan.
    Ensuring that a parent or other relative gets where they need to go 
when they no longer drive is a family issue. In an AARP survey of 
caregivers, more than eight in ten help their relative by providing 
transportation. Almost a third used a transportation service for their 
relative, double the number 4 years earlier. The average U.S. caregiver 
is a 49-year old woman who works outside the home and spends nearly 20 
hours per week providing unpaid care to a parent. Help with 
transportation could relieve much of the stress on these individuals. 
In fact, caregivers rank transportation among their top four priorities 
they want policy makers to address to help their loved ones.
    Although family and friends provide a tremendous number of rides, a 
2004 AARP survey found nondrivers were still six times as likely as 
drivers to miss doing something they would have liked to do because 
they had no transportation. The activities they missed were shopping, 
social and recreational, including visits to family and church. These 
are the types of trips with which older nondrivers do not like to 
``burden'' their friends and families, in contrast to rides to the 
doctor, pharmacy, and grocery store, which are viewed as more 
acceptable.
    A 2004 Surface Transportation Policy Project report brings the 
picture into even greater focus: nondrivers made 15 percent fewer trips 
to the doctor than drivers, 59 percent fewer shopping and restaurant 
trips, and 65 percent fewer trips for social, family and religious 
activities. Nondrivers take fewer daily trips than do drivers and are 
more likely to stay home. According to the 2009 National Household 
Travel Survey (NHTS), nondrivers average only 1.5 trips per day 
compared with 3.7 for drivers. Further, more than half of the nearly 
eight million older nondrivers stay home on any given day compared with 
less than 20 percent of older drivers.
    Beyond these drawbacks, driving cessation can have other deep 
impacts on the approximately 600,000 older persons who stop driving 
every year. Individuals who are unable to travel outside their home 
have difficulty maintaining their connections to the community and are 
at risk of social isolation. This can have serious health consequences 
as the magnitude of risk associated with social isolation has been 
compared with that of cigarette smoking. Studies have also linked 
``giving up the keys'' to depression and to a greater likelihood of 
ending up in a long-term care facility. In the words of a suburban 
participant in an AARP focus group, ``My world has been reduced to one 
square mile since I stopped driving.''
    By contrast, older persons living in areas where transportation 
choices are more abundant experience much stronger connections to their 
communities. For example, adults age 75 and older in the Rosslyn-
Ballston transit-oriented development corridor of Arlington, Virginia, 
take 20 percent more trips each week than those from Northern Virginia 
suburban areas where fewer transit and pedestrian options are 
available. And they are much less reliant on driving. According to a 
survey by the Northern Virginia Transportation Commission in 2005, the 
share of trips on public transportation by these older persons is 
double that of their suburban counterparts that do not live near 
transportation options, and over a fifth of their trips are on foot 
(compared with just 8 percent of trips among suburban adults age 75 and 
above). The mobility options that are part and parcel of such transit-
oriented development enable older individuals to retain their 
independence and stay engaged in their community.
Public Transportation Is Vital to the Solution
    Although public transportation may not be widely available in most 
of the neighborhoods in which older persons reside, millions of older 
adults who have convenient access use it for some or most of their 
trips. Persons age 65 and older took over one billion trips on public 
transportation in 2009, according to the NHTS. This is an increase of 
328 million trips since 2001. Moreover, 15 percent of all older people 
reported using public transportation in the past month, taking 
approximately two trips per week. Among nondrivers, the share is even 
higher--23 percent reported using public transportation in the past 
month.
    Interestingly, older drivers' share of trips by public 
transportation doubled between 2001 and 2009 (though, at 1.5 percent, 
it is still an extremely small share of their overall trips).
    For the roughly one-fifth of older persons who live in rural areas, 
public transportation is too infrequently an option. Such individuals 
are at very high risk of isolation if they do not drive. Forty-five 
percent of the rural elderly had no car according to the 1990 Census. A 
study published in the American Journal of Public Health in 2006 found 
that nondrivers in their semi-rural sample of older adults were four 
times as likely as drivers to end up in long-term care, not necessarily 
because they needed long-term care services, but because they could no 
longer function independently without transportation. Where service is 
available, older adults are heavy users of rural transportation 
programs, comprising nearly a third of riders in 2000.
    Public transportation programs are vitally important to helping 
older persons maintain their independence and connection to their 
community. This includes a range of transit services, including fixed 
route, specialized transportation, flexible routes, and service routes. 
I would like to focus in on two of the programs that have a 
disproportionate share of older riders, the Section 5311 nonurbanized 
program and the Section 5310 Specialized Transportation Program for the 
Elderly and Persons with Disabilities.
    The Section 5311 nonurbanized program provides operating and 
capital assistance to transit providers in rural areas. Elderly persons 
make nearly one-third of the trips provided by Section 5311 transit 
operators. These riders are likely to have a disability as well. A 
substantial number of their trips are for medical purposes. As health 
centers and clinics are increasingly centrally located in more urban 
locations, transportation to medical appointments, chemotherapy, and 
dialysis becomes a significant challenge for the rural elderly. As you 
heard from Federal Transit Administrator Peter Rogoff in your hearing 
in May, helping people stay in their homes by providing transportation 
to primary services can save the taxpayer money that might otherwise be 
spent in the Medicare and Medicaid programs.
    Section 5310, operating since 1975, grants providers, mainly 
nonprofit human services agencies, with capital assistance for the 
purchase of vehicles and equipment to transport the elderly and persons 
with disabilities. It operates in both urban and rural settings. These 
services were intended to supplement fixed route services provided by 
public transportation agencies where service was unavailable, 
insufficient or inappropriate. As does the Section 5311 program, 5310 
provides trips to pharmacies, senior centers, adult day services, 
medical appointments, nutrition sites and grocery stores. These rides 
play a critical role in connecting older persons and persons with 
disabilities to vital services and helping keep them engaged in their 
communities.
    A significant backlog of vehicles in need of replacement has 
developed over the years due to limited funding. In addition, high 
operating costs to cover such items as gasoline, insurance, and driver 
salaries are prohibitive for many nonprofit providers. AARP believes 
operating assistance should be allowed as an eligible expense for the 
Section 5310 program, in line with the policies of the other small 
formula grant programs. We also call on Congress to direct that basic 
program information, such as vehicles purchased, trip count, and number 
of clients served be reported annually.
    Some have called for the consolidation of Section 5310 with two 
other small transit programs, the Job Access and Reverse Commute 
program (Section 5316), which serves low-income individuals, and the 
New Freedom program (Section 5317), which provides services to persons 
with disabilities that go beyond Americans with Disabilities Act 
requirements. The rationale is that it is administratively burdensome 
for providers to operate separate programs given the small amount of 
funding accompanying the programs.
    AARP does not support merging these programs and urges that any 
proposal to do so carefully consider the impact on the populations 
served, from the perspectives of both quality and quantity of service. 
We also urge that any proposal build upon the proven success of the 
Section 5310 program.
    While historically underfunded, the Section 5310 program has 
functioned well for over 30 years. It is the only Federal 
transportation program that was rated in a GAO report on 
transportation-disadvantaged seniors as achieving all five ``A''s of 
senior-friendly transportation: available, accessible, acceptable, 
affordable, and adaptable. Section 5310 was also included in the 2007 
assessment by FTA and the Office of Management and Budget of three 
State-administered public transit grant programs (Section 5310, Section 
5311, and the Job Access and Reverse Commute Program, or JARC) which 
found that the programs ``complement without significant overlap, other 
Federal, State, and local programs that fund transit services to the 
target populations.'' It further found that ``State administered grants 
are an effective and efficient method of providing funds, particularly 
given the numerous small recipients of assistance at the local level 
under these programs and the emphasis on coordination with human 
service transportation programs at the State and local level.'' The 
report also noted that the programs are designed to provide support for 
services not otherwise available through private sector firms, 
generally because it is not economically efficient to serve these 
populations.
    A 2011 GAO report identified the need to improve cost-effectiveness 
and enhance services for transportation-disadvantaged persons in light 
of the 80 Federal programs for the elderly, persons with disabilities 
or low-income individuals that contain a transportation component in 
fiscal year 2010. These programs may provide bus tokens, transit 
passes, taxi vouchers or mileage reimbursement to access services or 
essential destinations. GAO recommends the Federal agency member 
Coordinating Council on Access and Mobility identify and assess their 
transportation programs and related expenditures and work with other 
departments to identify potential opportunities for additional 
coordination, such as the use of one-call centers, transportation 
brokerages, or shared resources. The GAO also advises that Federal 
departments develop and disseminate policies and guidance to their 
grantees on coordinating transportation services. Many of these 
grantees, for instance, are unclear about cost sharing and vehicle 
sharing among programs. AARP fully supports these recommendations.
    Better coordination of human services programs can reduce potential 
duplication of services and create more efficient services. 
Coordination efforts can also lower trip costs, extend hours of 
service, and offer a greater choice of destinations. Current law 
requires that funding for Section 5310, JARC, and New Freedom be 
derived from a locally developed human services coordination plan. AARP 
supports strengthening this requirement and ensuring a stronger role 
for older adults, persons with disabilities, and low-income individuals 
and their representatives in the coordinated human services planning 
process so that their needs may be more fully addressed.
    Coordination can be enhanced through the development of mobility 
management practices. The mobility management approach provides a one-
stop center that navigates multiple provider services to meet 
individual travel needs. Mobility managers may serve several functions, 
including helping communities develop coordination plans, brokering 
transportation services, and working with human service agencies that 
coordinate their clients' travel. AARP supports the establishment of a 
supplemental Federal Transit Administration Mobility Management program 
for older and disabled adults, to connect them with the best available 
transportation options in their communities.
    The challenges presented by the enormous growth of older Americans 
who need safe, affordable transportation services will require creative 
and innovative solutions. The demand to find these solutions is very 
high. The National Center on Senior Transportation was flooded with 
over 300 applications totaling $26 million from across the country for 
about $500,000 in grants for innovative transportation programs. Eight 
grants were awarded in that process. The New Freedom program has also 
generated new program ideas. Volunteer driver programs, taxi vouchers, 
ride- and car-sharing and other nontraditional solutions tailored to 
community needs are also important approaches. Such field-tested 
innovations can be incubated through further incentives for this 
purpose.
    The National Center on Senior Transportation has been a valuable 
resource in promoting technical assistance and education to increase 
understanding and delivery of transportation services for older 
persons. The NCST should be reauthorized and its funding increased so 
that it can continue its mission as well as provide additional seed 
grants for new transportation services.
    Nearly every trip by public transportation begins with a walking 
trip. Yet when sidewalk networks are broken or nonexistent, trips are 
denied to whole neighborhoods of people. This environment also means 
that some people who might otherwise use fixed route service must 
instead get to their destination by using more expensive paratransit 
service. AARP supports the inclusion of Complete Streets provisions in 
the transportation authorization bill. These policies will ensure safe 
access for people of all ages and abilities regardless of mode of 
travel.
    The need and demand for public transportation services greatly 
exceeds the funding available. We urge you to increase funding for all 
public transportation programs in your reauthorization proposal. Such 
funding is critically important to address the needs of the growing 
population of older adults and to help create more livable communities.
    We further urge the following:

  <bullet>  Continue to include public transportation in the core 
        transportation program that receives funding from the gas tax 
        in the Highway Trust Fund;

  <bullet>  Include support for operations to help mitigate the high 
        cost of gas and other expenses;

  <bullet>  Ensure that older individuals have greater involvement in 
        developing transportation plans to meet their needs; and

  <bullet>  Ensure that State departments of transportation retain 
        their authority to ``flex'' a portion of highway funds for 
        transit projects and programs.

    Thank you for this opportunity to testify before you today. I 
welcome any questions you may have.
                                 ______
                                 
                  PREPARED STATEMENT OF JAMES CORLESS
                  Director, Transportation for America
                             June 29, 2011
    Chairman Menendez, Ranking Member DeMint, and Members of the 
Subcommittee, thank you for the opportunity to testify today on 
priorities for transit in the reauthorization of the surface 
transportation program on behalf of Transportation for America. 
Transportation for America is the largest, most diverse coalition in 
the country working to improve our Nation's outdated transportation 
policies so that they work for everyone. Our member groups represent 
ordinary Americans from all walks of life who rely on our 
transportation infrastructure to be safe, affordable and convenient.
    Before taking my current role, I worked at the Metropolitan 
Transportation Commission in the San Francisco Bay Area of California, 
where I oversaw the development of the region's Coordinated Human 
Services Public Transportation Plan and guided the investment of a 
variety of Federal transportation funds.
Aging in Place, Stuck Without Options: Seniors and Transit
    While many of Transportation for America's transit priorities 
relate to the Federal transit program as a whole, I want to begin by 
focusing on the needs of America's older adults. My statement is drawn 
primarily from research conducted by Transportation for America and our 
partner organizations. That research was the basis for our recent 
report, ``Aging in Place, Stuck Without Options,'' which called 
attention to the shrinking mobility options for our Nation's growing 
senior population.
    As the Subcommittee is undoubtedly aware, the baby boom generation 
is our Nation's largest ever and has the longest life expectancy of any 
previous generation. Its members are now beginning to reach retirement 
age, and will do so until 2030. Many will live years beyond their 
ability to safely operate a vehicle for everything they do. However, 
our researchers found that by 2015, four in five Americans 65 and older 
will live in communities where driving is the only viable travel 
option, because public transportation services are poor or nonexistent.
Where Seniors Live Today
    The baby boom generation--more than 77 million people born between 
1946 and 1964 \1\--came of age during the unprecedented economic 
expansion that followed World War II, which helped fuel the rise of new 
suburban communities built around the automobile. Suburban expansion 
was supported in large part by the largest infrastructure project in 
U.S. history, the construction of the Interstate Highway system and its 
urban segments. In this period we began to build an entirely new form 
of human habitat, communities built on the premise that every adult 
resident would be able to own and operate a vehicle and use it for 
every trip from home, for all time.
---------------------------------------------------------------------------
     \1\ Coughlin, Joseph F. (2009) ``Longevity, Lifestyle, and 
Anticipating the New Demands of Aging on the Transportation System'', 
Public Works Management & Policy, Vol. 13, No. 4, 301-311.
---------------------------------------------------------------------------
    Having grown up and raised their own children in these communities, 
baby boomers will likely stay where they currently reside. Demographic 
research shows that after age 55, only a small share of Americans 
change residences voluntarily. Surveys by AARP and others find that the 
vast majority of people age 50-plus want to stay in their homes for as 
long as possible, and when they do move, they most often want to stay 
in their communities and near existing support networks. Today, 79 
percent of seniors live in suburban, exurban, and rural areas. \2\
---------------------------------------------------------------------------
     \2\ Rosenbloom, Sandra (2003) ``The Mobility Needs of Older 
Americans: Implications for Transportation Reauthorization'', Brookings 
Institution, Washington, DC.
---------------------------------------------------------------------------
Seniors' Use of Transit
    Despite inadequate service in many communities, older Americans are 
taking more trips on transit and choosing public transportation for a 
larger share of their overall mobility needs. Data from the most recent 
National Household Travel Survey shows that seniors took more than a 
billion trips on transit in 2009, which is a 51 percent increase from 
2001. \3\ Given the volatile gas prices and shaky retirement portfolios 
of recent years, those numbers likely would be higher still if better 
service were available in more places. Even in areas with transit 
service, older Americans must overcome barriers to transit use that 
could be fixed with a relatively modest investment: lack of sidewalks, 
appropriately timed crossing signals and other pedestrian safety 
measures and a dearth of bus-stop benches or shelters that offer 
protection from sun, heat, and rain.
---------------------------------------------------------------------------
     \3\ Lynott, Jana, and Carlos Figueiredo (2011) ``How the Travel 
Patterns of Older Adults Are Changing: Highlights from the 2009 
National Household Travel Survey'', AARP Public Policy Institute, 
Washington, DC.
---------------------------------------------------------------------------
    Public transportation offers an affordable alternative to driving. 
For seniors living on a fixed income, public transit offers a way to 
connect with health care providers, friends and the larger community 
without breaking the bank covering the costs of fuel, insurance, and 
monthly car payments. AAA estimates that the average car owner who 
drives 15,000 miles a years will spend $8,700 in 2011. \4\
---------------------------------------------------------------------------
     \4\ AAA (2011) ``Your Driving Costs 2011'', Available at 
www.aaaexchange.com/Assets/Files/201145734460.DrivingCosts2011.pdf.
---------------------------------------------------------------------------
    Public transportation also provides a critical lifeline to older 
adults when they are no longer able to drive. A 2002 study in the 
American Journal of Public Health found that women in their early 70s 
who stop driving live on for an average of 10 years, and men of the 
same age group live another 6 years, on average. \5\ These are years 
when many will need access to transportation options. Without access to 
affordable travel options, seniors age 65 and older who no longer drive 
make 15 percent fewer trips to the doctor, 59 percent fewer trips to 
shop or eat out and 65 percent fewer trips to visit friends and family, 
compared to drivers of the same age, research by the Surface 
Transportation Policy Project shows. \6\
---------------------------------------------------------------------------
     \5\ Foley, Daniel, Harley Heimovitz, Jack Guralnik, and Dwight 
Brock ``Driving Life Expectancy of Persons Aged 70 Years and Older in 
the United States'', American Journal of Public Health, August 2002, 
Vol. 92, No. 8.
     \6\ Bailey, Linda (2004) ``Aging Americans: Stranded Without 
Options'', Surface Transportation Policy Project, Washington, DC.
---------------------------------------------------------------------------
What the Future Holds
    Research we commissioned from the Center for Neighborhood 
Technology evaluated 241 metropolitan areas--those for which complete 
data were available--and found that in 2000, more than 11.5 million 
seniors lived in areas with poor transit access. By 2015, if seniors 
follow through on their plans to age in place, this will increase to 
more than 15.5 million--a 35 percent jump.
    A 2008 survey by AARP found that 85 percent of older Americans were 
either extremely concerned or very concerned about rising fuel prices, 
leading many to look toward other forms of transportation or to reduce 
their travel. \7\ These seniors, and millions more, will need access to 
affordable public transportation and other alternatives to driving if 
they are to remain active and independent.
---------------------------------------------------------------------------
     \7\ Skufca, Laura (2008) ``Is the Cost of Gas Causing Americans To 
Use Alternative Transportation?'' AARP, Washington, DC.
---------------------------------------------------------------------------
    The percentage of seniors in metropolitan areas with poor access to 
transit in 2015 varies significantly. For instance, 90 percent of older 
residents in Atlanta will have poor access to transit, while only 12 
percent of seniors in the San Francisco area will have poor access in 
2015.
What Can Be Done
    There are as many ways to address the mobility needs of an aging 
population as there are communities. Some inner suburbs might decide to 
extend an existing transit system from the urban core into their area. 
Some outer suburbs and more rural areas might create a call center for 
dial-a-ride or ride-sharing services. Some communities with an existing 
public transportation network might encourage senior-friendly housing 
in walkable neighborhoods near transit stops.
    Just as they could not have built the Interstates without Federal 
involvement, these communities will not be able to address their 
burgeoning mobility challenges without the support that only Congress 
can offer. It is critical to note, as well, that addressing the needs 
of older adults through increased transportation options will result in 
greater opportunity and access for all Americans. Demand for public 
transportation in the United States has never been greater, with 
ridership at its highest levels in 50 years and more than 600 new rail, 
streetcar and bus rapid transit projects proposed throughout the 
Nation. In 2009, Americans took a total of 10.4 billion trips on public 
transportation, covering more than 55 billion passenger miles.
    New riders have come from a variety of sources. Volatile gas prices 
have driven many car commuters to switch to transit, while some riders 
have been lured by the provision of new services--commuter trains and 
buses, new light rail lines, vanpools, and even the return of 
streetcars in several cities. Homes and jobs have located around new 
and existing lines, making it more convenient and easy to ride transit. 
Others are looking for ways to save money on car ownership or seek a 
more reliable commute, to act on their environmental values and to 
relax or be productive during their commutes.
    A number of riders use transit because the alternative is to be 
stranded. These are older Americans whose physical limitations or 
budgets no longer permit them to drive. They are young adolescents 
getting to school. And they are low-income families, disproportionately 
African American and Hispanic, who cannot afford to own and operate one 
or more cars. Ensuring mobility for these Americans is important to all 
of us. Among our Nation's core values is the promise that everyone 
should have access to opportunity and jobs, to be able to support 
themselves and be contributing members of the community. We believe all 
Americans, including older adults and those with disabilities, should 
be able to live full and productive lives whether or not they are able 
or can afford to drive a car.
Why We Should Make the Investment Now
    Public transportation costs money--but it can ultimately save 
households and businesses thousands of dollars a year. It can also 
generate profits, jobs, enhanced land values, tax revenue, new 
development and redevelopment. This helps improve economic 
competitiveness while reducing congestion and environmental impacts.

  <bullet>  Positions in transit operations and maintenance are blue-
        collar, green jobs that cannot be outsourced. So, too, are 
        construction jobs generated by building new transit lines and 
        stations, vehicles, and maintenance facilities. Every $1 
        billion of transit investment creates or supports 36,000 jobs. 
        Transit agencies employed 390,000 Americans in 2006, a 
        population greater than that of St. Louis, Pittsburgh, or 
        Tampa. \8\
---------------------------------------------------------------------------
     \8\ APTA ``2011 Public Transportation Fact Book'', Available at 
http://www.apta.com/gap/policyresearch/Documents/
APTA_2009_Fact_Book.pdf.

  <bullet>  The American Public Transportation Association reports that 
        on average, every $1 invested in public transportation 
        generates almost $4 in economic benefits. In addition, a $1 
        billion investment in public transportation results in $3.6 
        billion in business sales and generates nearly $500 million in 
---------------------------------------------------------------------------
        Federal, State, and local tax revenues.

  <bullet>  According to a recent Reconnecting America study, demand 
        for living near transit in walkable, mixed-use communities is 
        projected to double over the next 20 years.

  <bullet>  The Texas Transportation Institute found that without 
        public transportation service, the Nation's drivers would have 
        suffered an additional 785 million hours of delay and consumed 
        an additional 640 million gallons of fuel in 2010. Absent 
        public transportation in the 439 areas studied, congestion 
        costs for 2009 would have increased by nearly $19 billion, from 
        $115 billion to $134 billion.

  <bullet>  American households can save close to $8,700 per year on 
        average, or $724 per month, when they use public transportation 
        rather than a car, according to a 2009 estimate by the American 
        Public Transportation Association. \9\ The Center for 
        Neighborhood Technology, meanwhile, has found that families 
        living in areas where public transit is available spend about 
        half as much on transportation as families in locations without 
        transit.
---------------------------------------------------------------------------
     \9\  American Public Transportation Association, ``More Than 
$8,600 Saved Annually by Individuals Who Seek to `Ride Out' the Rough 
Economy by Riding Public Transportation'', News Release, May 6, 2009.

    The savings made possible by transit are also especially important 
to Americans in low-income households, many of whom are forced to drive 
by a lack of transit options. As of 2005, 73 percent of households 
below the Federal poverty line had a car, and on average, working 
families making between $20,000 and $50,000 spend close to 30 percent 
of their household incomes on transportation--more than they spend on 
housing.
    As our population and energy use grow, increased use of public 
transportation is the most effective strategy for achieving significant 
energy savings and environmental gains--without new taxes, Government 
mandates, or regulations. Emissions from road vehicles are the largest 
contributors to smog; currently, over 200 million passenger cars and 
light trucks account for about 50 percent of air pollution nationwide. 
Even at current levels of use, public transportation saves the U.S. the 
equivalent of 4.2 billion gallons of gas annually, reducing the 
Nation's dependence on imported foreign oil. Public transportation also 
reduces carbon dioxide emissions by 37 million metric tons annually.
What Congress Can Do
    Communities around the country are working hard to plan ways to 
solve their residents' mobility needs: A recent analysis by 
Reconnecting America found more than 640 major transit projects being 
planned around the country. Unfortunately, current funding levels are 
drastically below the amount required to meet this demand.
    We recognize that the Congress is grappling with numerous 
challenges related to our Nation's fiscal situation. However, continued 
underinvestment in public transportation will only exacerbate the 
situation by limiting our future growth potential.
    The next surface transportation authorization should increase 
dedicated funding for a variety of forms of public transportation such 
as buses, trains, vanpools, specialized transit, and ridesharing--
including support for operations and maintenance for services essential 
to seniors in both urban and rural areas. A recent study by the Federal 
Transit Administration found a backlog of $78 billion in maintenance 
needs at our Nation's bus and rail systems, plus $14 billion in annual 
maintenance needs going forward. Without additional funds, these needs 
will go unmet.
    Congress must provide funding and incentives for transit operators, 
nonprofit organizations, and local communities to engage in innovative 
best practices such as mobility management, programmatic coordination, 
public-private partnerships, and the widespread deployment of 
technologies such as intelligent transportation systems. Mobility 
management can help make the best use of limited resources. According 
to United We Ride--a Federal interagency initiative--``mobility 
managers serve as policy coordinators, operations service brokers and 
customer travel negotiations''--providing a single, user friendly 
source of personalized information helping people understand how to use 
transit services. This is accomplished through computer-dialed 
dispatch, automatic vehicle locations, and rerouting of vehicles to 
meet passenger needs. Ride Connection, a nonprofit community 
organization, worked with TriMet--Portland's major transit agency--to 
reduce its paratransit costs by almost $2 million. In addition, service 
coordination is critical to meeting the needs of seniors. The LINX 
cooperative incorporated in January 2010 by the Yellowstone Business 
Partnership is an example of coordination to be emulated across the 
country. The LINX program has integrated transportation providers in 27 
counties across three States by providing an easy-to-use and more 
seamless network
    Congress must also encourage State departments of transportation, 
metropolitan planning organizations, and transit operators to involve 
seniors and other community stakeholders in developing plans for 
meeting the mobility needs of older adults.
    Congress must ensure that State departments of transportation 
retain their current authority under Federal law to ``flex'' a portion 
of their highway funds for transit projects and programs. This 
flexibility is essential for States to respond to their unique 
transportation needs and avoids locking them into ``one-size-fits-all'' 
expenditure requirements.
    Finally, the reauthorization should include a ``complete streets'' 
policy to ensure that streets and intersections around transit stops 
are safe and inviting for people of all ages and abilities. A 
``complete streets'' policy would make certain that transportation 
planners and engineers design and operate the entire roadway with all 
users in mind.
    The future transportation needs of America's seniors--and indeed, 
of all Americans are great. The Federal Government should play a role 
in providing a viable solution to this problem by providing greater 
flexibility, fairness, and funding in the next 6-year transportation 
law. Increased Federal support for transit and the flexibility to use 
transit resources more efficiently is critical if we are to realize the 
mobility, economic, health, and environmental benefits that transit 
provides. It is our hope that this testimony will help serve as a 
catalyst for building a system that realizes the myriad benefits 
outlined above and creates a robust, resilient transportation network 
that works for all Americans.
    We thank the Chairman, Ranking Member, and Members of the 
Subcommittee for working on this issue of critical importance for the 
Nation and stand ready to continue to assist the Subcommittee in its 
work as it moves forward.
                                 ______
                                 
                  PREPARED STATEMENT OF MARY A. LEARY
      Assistant Vice President, Easter Seals Transportation Group
                             June 29, 2011
Introduction
    Good afternoon Chairman Menendez, Ranking Member DeMint, and 
Members of the Subcommittee. Thank you for the honor of being able to 
share some perspectives from our experiences at the Easter Seals 
Transportation Group on the important topic for today's hearing: 
Promoting Broader Access to Public Transportation for America's Older 
Adults and People With Disabilities. My name is Mary Leary and I am the 
Assistant Vice President for the Transportation Group at Easter Seals. 
My remarks will focus on the demographic and economic pressures on 
transit today, the benefits of public transportation in the lives of 
America's older adults and people with disabilities, and Easter Seals' 
Priorities for the reauthorization of Federal Transit Administration 
programs based on best practices in human services public 
transportation. The two major themes I will offer are: that person-
directed public transportation holds significant cross-cutting economic 
and quality of life benefits for everyone; and the importance of 
furthering partnerships and coalition building with nonprofit 
organizations and customers affected by public transportation policies.
Easter Seals' History in Human Services Transportation
    Easter Seals is very proud of our long history to increase the 
mobility of people with disabilities and older adults through 
facilitating partnerships between the disability community and the 
public transportation community through our training and technical 
assistance center called Easter Seals Project ACTION. Our mission is to 
assist communities to increase accessible transportation in our Nation. 
For over 23 years, we have built and enhanced Easter Seals Project 
ACTION so that today, we provide training, technical assistance, 
outreach, and applied research across a number of areas including 
mobility management, travel training, coalition building, Americans 
with Disabilities Act accessible transportation policies, and 
livability/sustainability.
    In addition, Easter Seals operates the National Center on Senior 
Transportation (NCST) in partnership with the National Association of 
Area Agencies on Aging (n4a). The NCST was created in the Safe, 
Accountable, Flexible, and Efficient Transportation Act--A Legacy for 
Users (SAFETEA-LU) to be a resource to increase transportation options 
for older adults. Key initiatives with the NCST are diversity, mobility 
counseling, healthy aging and mobility, partnerships between public 
transportation and nonprofit organizations in volunteer driving and 
livability/sustainability.
    Both these centers are cooperative agreements with the Federal 
Transit Administration (FTA) where we work in close collaboration with 
the FTA to assist local communities in furthering mobility for older 
adults and people with disabilities. Our vision is embodied in what one 
young man who attended a roundtable on transportation for youth with 
disabilities told us: ``I want to live a spontaneous life.'' The people 
we serve tell us that we must continue to invest in transportation 
resources, which 83 percent of Americans feel provides access to the 
things they need in everyday life.
Demographic and Economic Pressures on Transit
    It is a pivotal time in human services transportation for the 54 
million people with disabilities and the 38 million adults over 65 in 
the United States. Twenty-one years after passage of the Americans with 
Disabilities Act, we have witnessed significant improvements in 
inclusive community living for people with disabilities. The level of 
demand for mobility options is increasing and current economic 
conditions are challenging the Nation's transit providers' ability to 
respond to this demand. Access to public transportation for many people 
is their critical link to jobs, education, social, recreational, 
medical, health/wellness, spiritual and volunteer activities.
    The 2010 Harris Poll, funded by the National Organization on 
Disability, established that 34 percent of people with disabilities 
report having inadequate access to transportation. This is compared 
with only 16 percent of the general public. In fact, the problem seems 
to be worsening, with a jump of 4 percent in the number of people with 
disabilities reporting inadequate transportation options since the last 
study in 1998.
    Demographic realities also underscore the systems change we need to 
enhance transportation options. In the coming years, the fact that we 
will have record numbers of people over 65--over 70 million in the next 
20 years, more than double the number today--is not the key issue as 
many older adults will continue to drive safely well into their 70s. 
However, 51.5 percent of older adults over 75 have disabilities; and 71 
percent of people 80 and older have a disability. In 2007, there were 
31 million older licensed drivers and 1 million people age 70 and up 
stop driving each year.
    In addition to this increased demand for transit, 90 percent of 
transit agencies see flat or declining local and regional funding and 
84 percent have had to either reduce services or raise fares. Many 
communities, especially rural ones, may not have either public 
transportation or adequate accessible pathways such that people with 
disabilities cannot access transit resources without assistance. A 
frequent term we use is ``the last mile'' to characterize when 
residents cannot get to bus stops because their home, streets, and 
pedestrian environments are not accessible.
Benefits in Public Transportation--Employment, Health, Community 
        Living, and Long-Term Care
Employment Benefits
    Access to human services transportation facilitates employment and 
provides economic benefits to communities. Of the 28 million people 
aged 21-64 living with disabilities, only 46 percent are employed 
versus 84 percent of people 21-64 in without disabilities. We know from 
experience that one of the many barriers to employment for people with 
disabilities is access to reliable, affordable, and accessible 
transportation options to and from work. Increased workers increase tax 
revenues, which is good for everyone. In addition, demographic changes 
are leading to the need for more direct care workers, many of whom will 
depend upon transportation options to get to work. Our hotline is 
receiving more and more calls from people with disabilities who are 
losing public transportation resources in their communities resulting 
in people becoming unable to get to work.
Health Benefits
    The affects of aging and chronic conditions can have significant 
health and wellness implications that can be mitigated by access to 
transit and livable communities. The Centers for Disease Control 
recommend that adults average at least 22 minutes per day of moderate 
physical activity such as walking. In a 2010 APTA study, Litman found 
that universal and neighborhood design features that support transit, 
such as walkability and mixed land use, also support public health. Of 
people with safe places to walk within 10 minutes of home, 43 percent 
achieve physical activity targets, compared with just 27 percent of 
less walkable area residents. Sustaining or improving public health is 
not only important for individuals it is important for our economy. 
Chronic conditions account for 75 percent of healthcare costs (CDC, 
2007). This link between healthy, active lifestyles is well known, yet, 
32.5 percent of older adults over 65 have no leisure time physical 
activity. If older adults and people with disabilities have access to 
public transportation, there is a distinct possibility of improved 
health outcomes.
    There are other ways that research suggests there is a direct link 
between access to transportation and health status. Well documented 
studies show that driving cessation often results in depression. 
Depression often results in reduced health status, and, reduced health 
status increases healthcare costs. Through our cooperative agreements, 
Easter Seals, the American Medical Association, and Logisticare are 
currently working together to study the relationship between 
transportation access and health and wellness through a study being led 
by noted public health research Dr. Tom Prohaska of the University of 
Illinois at Chicago. Dr. Prohaska and colleagues at Texas A&M and the 
University of California at Berkeley hope to develop an evidence-based 
model on this relationship. In addition, an important CDC health aging 
research initiative--the Healthy Aging Network--has recognized the 
importance of mobility in terms of access to transportation options for 
people with disabilities and older adults. According to Cecil B. 
Wilson, former President of the American Medical Association, 
``Approximately 2.6 million adults in the U.S. don't get the health 
care they need because they don't have transportation. Understanding 
the relationship between access to transportation and access to care is 
key to helping patients get the care they need.''
Community Living and Long-Term Services and Supports Benefits
    As the country celebrated the Olmstead decision last week, it 
reminds us of the importance of a strong home- and community-based 
system of services and supports for people with disabilities. The law 
of our land reaffirms the civil rights of people with disabilities 
including the right to live in the least restrictive setting. At the 
same time, legislative advances are enabling a better home- and 
community-based long-term services and supports system. In addition to 
the formal long-term services and supports system, there is 
approximately $375 billion in long-term services and supports being 
provided by family caregivers, almost four times the amount provided by 
Medicaid. Access to supportive services such as transportation is 
critical to the success of both our formal and informal long-term 
services and supports systems. A recent National Association of Area 
Agencies on Aging study funded by the Metlife Foundation found that 
transportation was one of the top three issues governmental agencies 
around the country found was critical for ensuring their communities 
were supportive of the aging of their citizens. The strong partnership 
between the Federal Transit Administration and the Administration on 
Aging is seeking to assist in addressing the increasing transportation 
needs of older adults as transportation is the second largest 
expenditure in the Older Americans Act.
    Though a number of Federal programs increase access to community 
living for people with disabilities and older adults, gaps remain. 
Medicaid transportation is an essential link to covered medical 
services such as dialysis, yet for people who need dialysis treatment 
and are not on Medicaid, options are scarce. We hear stories all of the 
time from community service providers and public transit officials 
about their concerns for ensuring access to life-saving services such 
as dialysis.
Caregiver and Employer Benefits
    Eighty percent of people older than 60 are living with one chronic 
illness, and 50 percent of people older than 60 are living with two 
chronic illnesses (CDC, 2003). When older adults can no longer drive 
due to a disability, they often rely on family caregivers to provide 
transportation. This poses significant challenges for families and 
businesses. One of the number one reasons people take time off work is 
to take a loved one who cannot drive somewhere. One Metlife study found 
the caregiving cost to employers due to decreased productivity was 
$36.3 billion annually. Caregivers themselves may face a faster health 
decline after years of supporting a loved one with a disability. Often, 
strong community resources that help caregivers like transportation 
resources to respite services such as adult day healthcare give a 
caregiver a much-needed break that rejuvenates them.
    Some programs, such as the New Freedom Program (Section 5317) that 
have helped develop specialized approaches to increasing community 
transportation are small, yet have been very effective. Many States and 
localities have been able to develop mobility management programs and 
reduce costly ADA paratransit services by developing choice demand-
response services, creating public/private partnerships, or utilizing 
the power of intelligent transportation systems technology. These 
programs promote a strong partnership between nonprofit providers and 
transit providers that has been a long-standing mainstay of our 
community system. In one community where public transit had to cut some 
routes, the mobility manager worked with local nonprofit providers to 
ensure that everyone who depended upon the routes that were cut were 
given other transportation options so they could continue to stay 
mobile.
    As the Nation ages and more demand is put on these specialized 
systems, our citizens and communities tell us that they need the 
Administration, Congress, State and local governments, and local 
transit and human service providers to work together to increase the 
accessibility of our Nation's transportation network and increase the 
mobility of all Americans. This not a time to put further stresses on 
this incredibly important system or further reduce funding. Communities 
have already begun the important work of coordinating and leveraging 
their assets to reduce costs through increases in efficiencies. The 
need to ensure that we do not have three buses going through the same 
neighborhood picking up passengers in the same hour is well understood 
and, in many communities, being very effectively addressed. Community 
coalition building must continue and we need more people who are 
affected by program and policy decisions to be at the table. Based on 
our community coordination and coalition building activities, we found 
a number of successes with creating systems change.
Best Practices in Human Services Transportation
    For over 10 years, Easter Seals Project ACTION has led coordination 
and coalition building events with over 149 community-based teams. We 
also hold training programs on travel training and outreach to 
community planning organizations to discuss the importance of 
addressing accessibility in sustainable community projects. The best 
practices we see in these areas are:

  <bullet>  Involvement of older adults and people with disabilities in 
        coordination activities, especially those who use or would use 
        public transportation if it were available and accessible;

  <bullet>  Coalition building between community nonprofit providers, 
        public/private partnerships and public transit providers;

  <bullet>  The development of cross-functional transit coordination 
        plans that maximize the use of community transportation 
        resources;

  <bullet>  Person-directed mobility management;

  <bullet>  Innovative approaches to rural transportation;

  <bullet>  Travel training;

  <bullet>  Coordination between metropolitan planning organizations 
        and local community organizations, especially human services 
        providers; and

  <bullet>  Volunteer driving programs.

    Based on these best practices, Easter Seals offers the following 
priorities for the reauthorization of Federal Transit Administration 
programs and other surface transportation programs.
Easter Seals Policy Recommendations for Transportation Reauthorization
Access to Transit Options
    People with disabilities and older adults are disproportionately 
reliant on public transportation. If access to transit programs in all 
areas of the country, including formula grants for urbanized and rural 
areas and others that provide more targeted funding to vulnerable 
population groups such as people with disabilities and older adults, is 
increased, then people with disabilities and older adults will benefit. 
As the population ages, more people are going to be relying on public 
transportation options to maintain their mobility thereby increasing 
demand. However, many older adults will find that transit options are 
not available in their community as they age and potentially need to 
cease driving. In fact, according to the recent Transportation for 
America report ``Aging in Place, Stuck Without Options'', by 2015, more 
than 15.5 million Americans 65 and older will live in communities where 
public transportation service is poor or nonexistent. Increasing 
transit services in communities would allow more transit providers to 
utilize intelligent transportation systems (ITS) to create greater 
mobility. In addition, more flexibility in funding, particularly using 
5310 funding for operating assistance would be a great help to 
utilizing dollars more effectively. It is critical that we invest in 
transit at a level that will meet the growing demand for services and 
allows for affordable, accessible, efficient, and reliable 
transportation options for all Americans.
    Although these are challenging economic times, it is critical that 
we invest in this important area. If resources for general and 
specialized transit were significantly reduced more people with 
disabilities and older adults would be stranded and isolated. All of 
the advances we have made over the last several years in providing 
innovative and cost-effective approaches to providing mobility options 
as well as the planning and coordination efforts that have helped to 
achieve efficiencies could be at risk if there are significant 
reductions in resources.
Consolidation
    Efforts to streamline transportation programs to create 
efficiencies and minimize administrative burden are laudable and 
necessary in the current economic environment. However, we urge that 
consolidation efforts be undertaken very cautiously and that 
protections be put in place to assure that needed services are not lost 
in the process.
    The most prominent discussions around consolidation seem to focus 
on programs that serve unique needs of people with disabilities, older 
adults, and low-income individuals, particularly the 5310 program, New 
Freedom Program and the Job Access Reverse Commute (JARC) program. 
While there are many overlapping issues affecting all of these 
populations, there are also some distinct needs and competing interests 
that need to be taken into account in any consolidation discussion. It 
is critical that there be assurances that projects in consolidated 
programs continue to address the sometimes-unique needs of these 
different populations. Without some protections to assure that 
everyone's needs are represented fairly in the decision-making and 
priority-setting process, one or more of these communities could 
literally be left behind. There are some specific things in the 
planning process that might make sense to help create these 
protections.
    Another issue to consider is the primary role that the 5310 and New 
Freedom programs have played in helping assure that people with 
disabilities and older adults have access to services. 5310 has evolved 
to be a real lifeline for nonprofit service providers and we should do 
nothing to erode that. The 5310 program is often the sole resource that 
service providers have to make sure that people are able to attend 
their programs and participate in healthcare, respite, social and other 
activities. This partnership between nonprofit service providers and 
transit also allows 5310 dollars to go further as they are bundled with 
philanthropic and other private dollars to create better service. We 
fear that in consolidation, the balance of power in decision making 
would mean that transit agencies would be less likely to pass through 
5310 funding to nonprofit providers and instead create new programs of 
their own or support existing targeted programs, especially in these 
very tough fiscal times. The vital partnership between transit agencies 
and nonprofit service providers that 5310 has created is successful and 
must be protected. In addition, the New Freedom Program has been used 
to initiate cost-effective consumer responsive options such as dial-a-
ride, taxi vouchers and volunteer driver programs, not just fixed route 
transit. Having resources that expand mobility options beyond fixed-
route transit is something that needs to be continued in any 
consolidation discussions.
    Finally, we recommend that any consolidation of programs should 
make sure that the resulting consolidated program provides at least the 
current level of services and support to providers and riders that the 
programs would have separately.
Planning
    One of the very positive things to come out of SAFETEA-LU has been 
the consolidated human services planning process required for New 
Freedom, 5310, and JARC funding. We have seen tremendous progress in 
getting more people with disabilities, older adults, and the people who 
serve them to the table to help create the priorities for spending. In 
this reauthorization, we would like to see this process strengthened 
even further. Easter Seals Project ACTION and the National Resource 
Center at the Community Transportation Association of America (CTAA) 
have supported many coordination and coalition building activities. 
Attendees regularly express the value they received from these 
programs.
    Planning must be accountable, transparent, inclusive, and have real 
measures of expected outcomes so there is a reference point to define 
success. In addition, planning processes for different aspects of 
mobility, including highway planning, should be consistent. In order to 
do this, more direction is needed on what a truly inclusive process 
means and further oversight of the process of planning, not just the 
outcome. In order to make sure that the disability and aging 
communities are genuinely part of the process, it takes real outreach 
efforts from transit and planning agencies. Although we all know how 
critical transportation is to the lives of individuals, it is often not 
the primary area of expertise for most advocates and individuals who 
are most likely to be part of the planning process. Too often, I hear 
that transit planners tried to reach out but were not able to get 
people to participate. This is not necessarily due to apathy, but often 
to competing priorities and a lack of understanding about 
transportation systems and other things that are often second nature to 
transit and planning authorities.
    We recommend that designated agencies be charged with documenting 
how input from stakeholders was considered in the development of the 
coordinated transportation plan. The Department of Transportation 
should review those efforts to assure that they are sufficient and that 
every effort was made to enable input. Stakeholders should also have an 
opportunity to review and comment on the plan before it is finalized. 
We also continue to call for all plans to be quickly and easily 
available to the public in one central location.
    In addition to the specific human services planning process, Easter 
Seals sees great opportunity to use overall community planning to 
assure that people with disabilities and older adults are able to have 
the greatest mobility and independence possible. Efforts such as the 
Administration's liveable community initiative that help communities 
think holistically about the entire community environment and plan for 
the needs of all citizens are critical to people with disabilities and 
older adults. If we are able to assure that pedestrian access routes, 
transit stations, bus stops, and other aspects of the community work 
for people with disabilities and older adults, we will increase the 
mobility of the entire community. Comprehensive, quality community 
planning efforts should be applauded and continued.
Mobility Management
    Mobility management is a critical concept that needs to be enhanced 
in this reauthorization. Mobility management focuses on the individual 
and identifies the best transportation options, both public and 
private, for that person's travel needs. Mobility management improves 
transportation options for those utilizing community services, 
workforce development centers, education, and health services and 
ultimately improves mobility options for everyone. Mobility management 
services also help to maximize the use of Intelligent Transportation 
Systems and other technology to enhance mobility and crates one-call 
systems that allow greater ease-of-use for customers. In addition, 
mobility management includes people with disabilities and older adults 
in the design of transportation options.
    Person-directed mobility management includes:

  <bullet>  identifying needed services and transportation needed to 
        access those services;

  <bullet>  assessing community transportation resources;

  <bullet>  assessing an individual's ability to use those resources;

  <bullet>  filling service gaps, and;

  <bullet>  providing agencies and individuals with information and 
        training on using local transportation.

    SAFETEA-LU established an inclusive concept of mobility management, 
which is an available capital expense throughout the Federal transit 
program, including Section 5310. Unfortunately, only minimal technical 
assistance is currently available to help transportation programs 
develop mobility management efforts and adapt them to people's unique 
needs. In addition, there are few incentives for local providers to 
adopt mobility management strategies instead of investing more in vans 
or buses, since all are treated equally as capital expenses. Mobility 
management services must be enhanced to better help transit and human 
services systems meet the needs of people with disabilities and older 
adults by establishing a dedicated resource for these services. We also 
recommend that any resources available for mobility management require 
that human service providers be a critical part of the delivery of 
services.
    The additional advantage to having mobility management resources in 
as many communities as possible is in the planning process. Once 
mobility management is set up in a community, there is a single entity 
charged with knowing the entire array of transportation resources in 
that community, both public and private. This will help minimize 
duplication and unnecessary use of Federal and State dollars if there 
are private resources already available. Recently, the Partnership for 
Mobility Management hosted the first ever Mobility Managers' Conference 
at the CTAA Expo. CTAA, APTA, and Easter Seals are three of the 
founding members of the partnership.
Technical Assistance and Education
    While great progress has been made in the accessibility of 
transportation options since the passage of the Americans With 
Disabilities Act in 1990; advances in technology, changes in consumer 
demand, continuing changes in societal attitudes about people with 
disabilities, and the aging of America all speak to the continued need 
for targeted technical assistance and education to help people with 
disabilities, older adults, and communities work together to overcome 
barriers to mobility.
    The funding level for Project ACTION has remained static since 
1998. At the same time, the increasing complexity of mobility issues 
facing people with disabilities and transit providers, as well as the 
increased prominence of the work done by Project ACTION, has greatly 
increased demand. By any measure, Project ACTION has done an exemplary 
job in providing quality, needed, and targeted technical assistance, 
training and education with limited resources and has managed to 
significantly expand its reach by increasing efficiency and intelligent 
use of technologies such as online training to expand their reach. 
Another thing that has helped Project ACTION continue to thrive has 
been partnerships with other Federal agencies and private sector 
entities to undertake targeted projects. These partnerships are 
critical in not only expanding the reach of Project ACTION, but also in 
assuring that mobility for people with disabilities is addressed in a 
variety of venues. However, without additional resources, Project 
ACTION will not be able to continue to meet the broad range of need 
that is emerging and quality and access to services will suffer.
    The NCST, originally authorized under SAFETEA-LU, has proven to be 
a valuable resource for helping communities meet the needs of a growing 
aging population. Since beginning operations in 2007, the NCST has 
provided necessary technical assistance on best practices for 
nongovernmental organizations and public agencies and brought together 
aging and transportation professionals in order to better serve the 
transportation needs of older adults. Increased funding for the program 
would begin to help meet existing demand for technical assistance and 
education, and would increase the ability of the center to provide 
direct support to more communities who are trying to meet existing 
demands and help promote cost-effective and coordinated mobility 
solutions to meet the growing demand for services.
Summary
    Thank you very much for this opportunity to provide input into this 
critically important process. We feel that if we continue to invest in 
our Nation's transit providers, we will be well positioned to deliver 
the needed services safely and efficiently in communities of all sizes. 
We hope the success stories and data underscore the employment, health, 
community living, long-term services and supports, and employer and 
caregiver benefits of continuing to invest in a robust, national, 
multimodal transportation system. This investment is good for 
businesses, it is good for State and Federal economies, and, even most 
importantly, it is good for our citizens. Public transportation 
services increase:

  <bullet>  Health--increased quality of life (including for 
        caregivers)

  <bullet>  Access to Community Based long-term care

  <bullet>  Civic engagement--is boosts volunteerism

  <bullet>  Socio-emotional connections enabling empowerment, 
        independence

  <bullet>  Access to jobs for people who cannot drive.

    As Jim Williams, our Easter Seals President and CEO says, 
``accessible transportation for people with disabilities is an 
important part of Easter Seals' mission to help people with 
disabilities and their families live, learn, work, and play in the 
communities of their choice.'' We know that all of our partners in the 
transit, disability, human services, medical, and healthcare world 
would echo the same sentiment--rides do change lives.
        APPENDIX--Human Services Transportation Success Stories
Collaboration, Coalitions, and Coordination
Ann Arbor, MI: Coordination and Transportation Funding
    The Ann Arbor, MI (2006), Mobility Planning Services (MPS) team's 
focus was ``to provide universal public transportation services which 
are seamless and accessible throughout Washtenaw County in a safe, 
reliable, and efficient manner.'' When they returned from the MPS 
Institute, the Ann Arbor, MI, team learned that service to Ypsilanti, a 
high demand urban service area, was subject to elimination. Due to the 
work of the MPS team and rider advocates, the Ann Arbor Transit 
Authority (AATA) Board of Directors decided that further investigation 
of funding alternatives was needed and instead of eliminating service 
instructed AATA staff to reduce expenses to cover the Ypsilanti 
shortfall.
    The team's focus was to collaborate with human service 
organizations to establish a coalition of community members, community 
leaders, and local transit riders to develop a cooperative countywide 
buy-in for regional transit funding. AATA joined forces with the 
Washtenaw County Human Services Collaborative (HSCC), whose Adult 
Action Group shared a common focus with the MPS team. Meanwhile, AATA 
continued its work to leverage JARC and New Freedom funds and hired a 
market research firm to assist with developing and implementing a plan 
to gauge community support for public transportation funding.
Hampton Roads, VA: A Partnership Between Transit and the Disability 
        Community
    Accessible transportation has become a focused activity for Insight 
Enterprises Inc., Peninsula Center for Independent Living of Hampton 
Roads on the Virginia peninsula. Today, Insight Enterprises works with 
the local transit company, Hampton Roads Transit, on improving services 
for people with disabilities. ``As a result of the MPS experience, the 
transit agency and the disability community are truly working together 
in partnership,'' said Donald Fennell. ``HRT and people with 
disabilities work together on issues of accessible service and the ADA 
eligibility process. Additionally, the User Citizen Advisory Committee 
for HRT has evolved into an important voice for the disability 
community on issues concerning public transportation in our region.''
Louisville, KY: Mobility Management
    In Louisville, KY, the transportation and human service community 
is steadily progressing toward a vision of coordinated transportation 
that is accessible to people with disabilities. Milestones have 
included formation of a Regional Mobility Council (RMC), launch of a 
mobility management program, hosting annual Transportation Summits, 
development of a coordinated transportation plan, design of a Travel 
Management Coordination Center (TMCC), funded as a pilot project 
through the Federal Mobility Services for All Americans initiative, and 
selection of JARC and New Freedom Program projects. The MPS team was a 
subset of the larger steering committee that was formed following a 
2005 transportation summit convened locally to explore coordinating 
Louisville's human services--public transportation resources. A second 
summit was held shortly before the team participated in the MPS 
Institute in April 2006.
    ``MPS helped the group solidify their mission and vision,'' said 
TARC's Mobility Manager Nancy Snow. Formerly a representative of 
another organization on the steering committee, Snow was hired by TARC 
in Sept. 2006 to lead the coordination effort. In addition to hiring a 
mobility manager, the steering committee was expanded and formalized 
into the RMC. The group now includes consumers, advocates for seniors 
and for people with disabilities, representatives from human service 
agencies, transportation providers, and local governments. The RMC 
meets on an ongoing basis throughout the year and works toward the 
goals adopted at the annual transportation summit. It serves as the key 
advisory group for coordination efforts including development of the 
Coordinated Public Transit-Human Service Transportation Plan and 
selection of projects to be funded under the Job Access and Reverse 
Commute and New Freedom federally funded transportation programs.
San Diego, CA: Full Access and Coordinated Transportation
    The San Diego, CA (2005), MPS team formed a nonprofit organization 
called Full Access & Coordinated Transportation (FACT). FACT's mission 
is: ``to create a transportation system that will provide access and 
mobility for the people of San Diego County by augmenting existing 
resources.'' This is accomplished through the creation of partnerships 
that eliminate barriers, developing alternative modes of 
transportation, and accessing additional sources of funding. 
Accomplishments include: the development of FACT into a Regional 
Mobility Management Center, establishment of the Community Partnership 
Program, conducting the North County Pilot Project (NCPP), and 
spearheading the San Diego County Volunteer Driver Coalition. The 
Community Partnership Program offers three different levels for 
agencies and organizations to demonstrate their support for FACT: a 
Statement of Support, a Partnership Agreement, and an Operating Pledge.
    The NCPP worked on such issues as determining the true cost of 
rides, insurance liability, shared ridership, shared vehicles, and 
shared drivers. In addition to other accomplishments, FACT sponsored an 
all-day training with the staff from the California Association for 
Coordinated Transportation (CAL ACT) and the United We Ride regional 
ambassador. The training covered coordinated transportation, mobility 
management, technology, and an overview of how agencies can determine 
the true cost of their transportation and what cost they can assign to 
a passenger or mile or length of trip.
Sumter, SC: Coordination and Innovative Approaches to Rural 
        Transportation
    Through a larger coalition effort, the Sumter, SC (2006), MPS team 
implemented a volunteer transportation program, a rural rideshare 
program, and flex that is more efficient routes in rural areas. They 
also worked to maximize human service transportation through 
coordination and better utilization of the open seats on vehicles. In 
addition, they encouraged employers to use the Federal Commuter Tax 
Benefit for employees. ``Our objective was to bridge the transportation 
gaps for as many of the neediest individuals in the region--with the 
primary focus in the rural areas due to less frequent and visible 
transportation services,'' said Orlando Papucci. ``Working with Easter 
Seals Project ACTION has been very instrumental in garnering 
recognition and support (current and future) that has helped to further 
our efforts of bridging the transportation gaps in our region.''
    The Sumter, SC, team utilized many strategies to reach their goals 
including: holding monthly coalition meetings, conducting extensive 
media outreach, maintaining a consistent objective of increasing 
accessible transportation options, going to the grass roots level to 
address the need, partnering with public and private transportation 
providers, providing assistance to any organization in finding 
accessible transportation options, ensuring that all transportation 
plans endorse accessible transportation options for every facet of 
transportation, and always being available to give a presentation.
Washburn County, WI: Coordination and New Service
    Team Washburn County, WI (2006), came together with the intent to 
increase transportation services in this rural county with a year 2000 
population of just over 16,000 people. No public transportation service 
existed in the county at the time of the 2006 MPS Institute, though 
several human service agencies provided transportation services for 
their consumers. The largest provider was the County Unit on Aging, 
which provided medical transportation through a cadre of volunteer 
drivers. The community had a history of working together to share 
resources for meeting transportation challenges in this remote rural 
area some 250 miles from Madison.
    During the hands-on planning sessions, the team members discovered 
there were things they could do right away, as well as 6 months down 
the road and over a long-term basis. Ventures Unlimited and the Unit on 
Aging realized there was nothing to stop them from opening rides to 
members of the general public something they put in practice shortly 
after returning home from MPS. On June 23, 2006, a new ``Rides'' 
service began offering weekly transportation to a regional shopping 
destination in a nearby county, using available seats on a Ventures 
Unlimited van that was already traveling in that direction. Bob Olsgard 
noted, ``This may seem like a small step for a larger community but 
it's a huge step for our small community.''
    The Washburn County, WI, MPS team also quickly set to work on 
expanding the planning group. At their first meeting back home, they 
made the decision to work in partnership with human service 
coordination planning process required by the Wisconsin Department of 
Transportation. This strategy paid off. At the August 2006 coordination 
planning meeting, at which the FTA's Framework for Action tools were 
put to use, other key transportation allies identified by the team 
joined in support of the team's mission. That expanded partnership 
formed at that first meeting continues to work. At subsequent meetings, 
the group formed the Washburn County Transportation Council, developed 
a mission of providing countywide transportation for all, and worked on 
a resolution to make the council the official transportation advisory 
group for Washburn County. ``Without the support of the MPS team, I do 
not feel that we would have made the leaps and bounds in transportation 
services for our county,'' said Kristin Frane. ``Before the MPS, our 
service providers were focused on only their silo service and funding, 
now community transportation leaders and providers are looking for ways 
to work together to provide more rides to more people.''
Travel Training and Building Partnerships With Metropolitan Planning 
        Organizations
Maricopa County, AZ
    Travel training programs as well as forging strong partnerships 
between the public transit, planning, and nonprofit communities are 
also creating results. In Maricopa County, AZ, the Metropolitan 
Association of Governments has formed a Transportation Ambassadors 
Program where they convene quarterly meetings to share best practices 
and build relationships. Valley Transit in Phoenix has a new state of 
the art mobility center that not only does eligibility assessments for 
ADA complementary public transit but also has a travel training office 
steps away from where people with disabilities have the opportunity to 
try out the various infrastructure and pavements of the local community 
to see if they can use the fixed route system or would require 
paratransit services. In our travel training programs, we find travel 
training is helping many people with disabilities have more freedom and 
independence through learning how to use the standard public 
transportation systems. This can save transit agencies over $35/ride--
with fixed route trips vs. paratransit trips costing an average of $5/
ride vs. $30-65/ride--the return on investment impact is very high.
New York, NY
    However, the impact on a person is even higher. At an event this 
year where a school system in the New York City was celebrating its 
50th Anniversary for its travel-training program, the program 
administrator, Peggy Groce, convened a panel of students with 
disabilities, parents, teachers, transition specialists, and travel 
trainers. What was the most compelling was hearing students and parents 
discuss their initial fear of the ability to navigate New York City's 
vast transit network alone, yet person after person recounting their 
personal journey and how travel training enabled them or people they 
cared for to live independently, in their own home, have a job and be 
able to get to wherever their needed to go. In Houston, Mary Ann Dendor 
from the Houston Metropolitan Transit Authority has led an initiative 
for many years in partnership with the Houston School District on 
travel training. These partnerships between schools, transit, nonprofit 
organizations, and other human services groups are yielding innovations 
that reduce costs and improve community life for people with 
disabilities of all ages.
One Call Centers
    In Aiken, SC, officials from aging, transportation, planning, and 
human services agencies leveraged FTA funding in intelligent 
transportation systems from the Mobility Services for All Americans 
Project; AoA funding in aging and disability resource centers and an 
earlier Centers for Medicare and Medicaid Services Real Choice Systems 
Change grant to develop a one-call center called The Lower Savannah 
Council of Government's (LSCOG) Aging Disability & Transportation 
Resource Center. This center is a state of the art model for 
coordinated transportation access. This center serves six counties in 
Lower Savannah. Tremendous opportunities exist to leverage one call 
systems across aging and disability centers, 211 systems, Department of 
Labor One Stops and other information and referral systems to enable a 
no wrong door approach to providing easier access to transportation 
information for everyone. National one-call information and referral 
systems such as the Eldercare Locator run by n4a which now partners 
with the NCST, is seeing an exponential growth in questions on 
transportation services.
NCST Grant Findings
    Over the last several years, the NCST has worked closely with 29 
communities in over $700K in grants. We found themes in these 
communities regarding the importance of Volunteers, Service Expansion, 
Technology, Alternative Funding Mechanisms, outreach, coordination, and 
maximizing resources. Thus, based on these experiences with communities 
have achieved; we have six specific areas for your consideration in 
future legislation that hold great promise toward improving the 
mobility of older adults and people with disabilities.
                                 ______
                                 
                  PREPARED STATEMENT OF STEVE FITTANTE
                Director, Middlesex County Area Transit
                             June 29, 2011
    Mr. Chairman, Senators, I am here today to focus on the need for 
new transit operating models for increasing mobility for the growing 
senior population, particularly in areas with limited pubic 
transportation.
    Middlesex County, NJ, is a predominately suburban county of 800,000 
and is blessed with some of the best interstate commuter transportation 
in the Nation. My agency, the Middlesex County Area Transit operates an 
80 vehicle fleet of accessible vehicles transporting over 500,000 
annual passenger trips, whose mission is to serve the local 
transportation needs of persons without access to an automobile.
    During the past two decades, urban and rural counties across the 
Nation have experienced rapid suburban population growth and while we 
have seen the growth of commuter transit and the expansion of urban 
transit options, local community transit growth has often lagged. In 
Middlesex County, over 150,000 new residents have been added since 
1990--not a single local NJ Transit fixed route bus has been added 
since 1990--the funding is just not there to meet non- mass transit 
levels of demand.
    The challenge is how to efficiently address the growing mobility 
demands of aging persons in the context of the overall transit network, 
growing trip demand and limited financial resources.
    Over the past 6 years, Middlesex County DOT has developed flexible 
fixed route buses designed to serve both local destinations and access 
to other local and regional bus and rail services. These flex routes 
are supported by Federal and State funding sources, targeting specific 
older adults, people with disabilities and low income populations but 
designed to serve all of these groups and the general public. These 
services are also operated at lower costs per revenue hour than 
traditional bus transit services and operate at a higher efficiency 
than traditional curb-to-curb paratransit services.
    The result has been a more than doubling of the system efficiency 
of the MCAT system while enabling persons without access to an 
automobile to have greater mobility choices in terms of frequency and 
the availability of evening and weekend service. These choice benefits 
accrue not only to our targeted funding populations but to students, 
passengers choosing to leave their cars at home and the general public.
    The power of affordable mobility is illustrated by the story of one 
of our passengers I met on one of our New Brunswick bus routes. A 
working mother of two young children, she would use an NJ Transit bus 
to access the NJ Transit NE Corridor rail service between New Brunswick 
and Princeton. But between the bus stop and the daycare center, located 
two miles away next to the rail station, she had to take a taxi in the 
morning and evening costing $14.00 per day. When our flex route bus 
began operating in 2007, she was able to replace the $14.00 round trip 
taxi fare with a $2.00 daily bus fare, saving her over $200.00 per 
month in commuting cost. Can you imagine the impact this had on a 
moderate income household without a car?
    This same route provides dozens of senior citizens with access to 
food shopping and medical destinations and people with disabilities 
access to a range of services and employment opportunities as well as 
access to five local NJ Transit regional bus routes and the NE Corridor 
rail service.
    While many public and not for profit transportation providers 
serving the needs of older persons, people with disabilities and 
economically disadvantaged persons have critical capital vehicle 
replacement needs, today the common denominator for most systems is the 
erosion of operating funds.
    Reductions at the State level resulting from revenue shortfalls not 
only impact the level of direct operating funds for transportation, but 
many local grant applicants can't provide the required match for 
Federal funding sources, particularly USDOT/FTA/FHWA grants including 
Job Access and Reverse Commute, New Freedom and Congestion Mitigation 
and Air Quality grant transit flex funding.
    In New Jersey, only 3 of 21 county coordinated systems applied for 
operating FFY 2010 funding under New Freedom and CMAQ--the barrier is 
the inability to come up with the 50 percent matching funds.
    Many counties nationally who desperately need operating funds to 
meet increasing demands are facing the same issue and are applying for 
capital and mobility management projects which require only a 20 
percent match.
    Beyond a crisis of funding facing community transit, there is a 
need for clearer regulation and coordination requirements.
    Agencies are helping themselves by developing new sources of 
funding including advertising revenue, moving from donation to 
mandatory fare programs and enlisting corporate contributions to 
support community transit services that benefit their employees and 
customers.
    In the area of fares and corporate contributions, the growth in 
transportation demand to kidney dialysis centers has accelerated the 
search for alternative funding. The Anti-Kickback legislation designed 
to reduce medical company fraud is being used by privately operated 
kidney dialysis centers to refuse to contribute for the cost of 
transportation, believing they would be in violation of those statutes 
if they provided a contribution to local transportation operators. The 
issue of whether there is a safe harbor for contributions to local 
transportation is unclear.
    Finally, there is a need to provide incentives for encouraging 
community transit systems to better coordinate their services through 
feeder service to traditional bus and rail transit where appropriate.
    There are three specific areas where I think Federal changes could 
assist community transit operators in meeting this mission:

  1.  Strengthen requirements for coordination of service delivery 
        between smaller community transit operators and large urban 
        transportation authorities including the use of funding to 
        purchase transit tickets

  2.  Consider a change in the Federal match requirement for FTA 
        operating funds to create equity between capital, 
        administration, and operating funding requirements

  3.  Require the Centers for Medicaid and Medicare Services (CMS) to 
        issue an opinion on whether antikickback legislation applies to 
        the funding of local community transportation by kidney 
        dialysis facilities or does it qualify as a Safe Harbor

    As outlined today, the challenge of unprecedented growth in nonauto 
demand from aging populations as well as other transportation dependent 
individuals, requires that we leverage the investment in our 
traditional transit systems in expanding the targeted services for 
these populations. A 30 percent reduction in Federal funding for these 
programs would eliminate the progress made in establishing more 
efficient systems to address the growing demand for transportation in 
suburban as well as rural and urban areas.
    Thank you for the opportunity to raise these issues as you tackle 
the challenges of providing Federal support for these critical 
services.
                                 ______
                                 
                  PREPARED STATEMENT OF RANDAL O'TOOLE
                     Senior Fellow, Cato Institute
                             June 29, 2011
    A recent report from a group called Transportation for America 
calculated that, by the year 2015, more than 15 million Americans above 
the age of 65 will have poor access to transit. The report called for 
more funding for transit so that these people would be able to ``age in 
place'' and still have transit access. The American Public 
Transportation Association and other transit-oriented groups have 
written similar reports.
    There are two problems with this line of reasoning. First, for the 
vast majority of Americans outside of the New York metropolitan area, 
transit is practically irrelevant as a form of travel. Despite 
receiving the largest subsidies per passenger mile of any mode of 
transportation, less than 1 percent of all passenger miles traveled by 
American rely on transit.
    Transit is even less relevant for senior citizens than for other 
Americans. The American Public Transportation Association says that 
people over 65 ride transit only 54 percent as much as the national 
average. By comparison, the 2009 National Household Travel Survey found 
that people over 65 drive 64 percent as many miles per year as the 
national average. This suggests that transit is an even smaller share 
of senior travel than the national average.
    There is a good reason for this. Even at today's gasoline prices, 
driving is less expensive, faster, and more convenient than transit for 
most trips. Most of America's senior citizens have driven for most of 
their lives and will continue to do so as long as they are physically 
able. By the time they are no longer able to drive, few of them will be 
comfortable walking a quarter- to a half-mile to a transit stop and so 
they will rely on friends and relatives to transport them.
    As a personal example, when my mother was 80 she had a stroke that 
caused the loss of most of her vision in one eye. After learning how to 
compensate, she passed her driver's exam and continued to drive for 5 
more years. She recently gave up her car due to other health reasons 
but relies on my father to drive her where she needs to go. Although my 
parents live in a central city within a tenth-of-a-mile of frequent bus 
service and a half-mile of a rail transit station, they almost never 
used transit either before or since retiring. Of course, this is a 
small sample, but national data suggest my parents' attitudes are 
typical.
    The second flaw in the reasoning behind the Transportation for 
America report lies in the assumption that senior citizens will ``age 
in place.'' The Census Bureau says Americans move an average of nearly 
a dozen times in their lifetimes. We move to go to school; we move to 
get a job; we move to change jobs; we move to find a better place to 
raise our children. Few Americans, confronted with the need for one of 
these moves, will say, ``Other taxpayers should subsidize my 
transportation so I won't have to move.''
    ``Only a small percentage of Americans move after they reach 
retirement age,'' says Transportation for America, leading the group to 
argue for more transit subsidies so that more Americans can ``get their 
wish to `age in place.' '' I suggest that, if most retirees don't move, 
it is because automobiles satisfy most of their transport needs. The 
2009 National Household Travel Survey found that vehicles are available 
to 90 percent of people between 70 and 79 years and more than 82 
percent of people over age 80.
    It is more efficient for those who prefer to use transit to move to 
places with frequent transit service than to ask everyone else to 
provide even more subsidies to extend service for a relatively small 
number of transit riders. Such service extensions in the past have 
significantly reduced transit productivity. The American Public 
Transportation Association's Fact Book shows that the average number of 
riders on transit buses has declined from 12 to 9 since 1977, while the 
Department of Energy's Transportation Energy Data Book shows that the 
amount of energy used by transit buses to carry a passenger mile has 
increased by 75 percent since 1970.
    A significant alternative to increased transit subsidies is to 
reform our transit systems so that they can provide better service to 
transit riders at a lower cost. One possible reform is to rely more on 
shared taxis, a door-to-door service that the Federal Transit 
Administration calls ``demand responsive'' transit. Currently, most 
transit agencies offer shared-taxi service only to disabled riders. 
Because the market for such service is so small, it is the most 
expensive form of transit, costing taxpayers more than $3.50 per 
passenger mile compared with less than $0.75 per passenger mile for 
other forms of transit. (For comparison, subsidies to highways and air 
travel each cost taxpayers about a penny a passenger mile.)
    One way to reduce the cost of shared taxis would be to expand the 
market by offering shared-taxi service to anyone who wants it. This 
would increase the average number of passengers carried by shared-taxi 
vehicles. Companies like SuperShuttle and Coach USA offer shared-taxi 
rides to airports at fares per passenger mile comparable to or less 
than the cost of public transit (including transit subsidies), and far 
less than the costs of public demand-responsive services to disabled 
riders. But, in most American cities, the taxi industry has 
successfully prevented either transit agencies or private entrepreneurs 
from offering shared-taxi services anywhere except to and from 
airports.
    In the 1970s, San Jose's transit district offered shared-taxi 
service to the general public. This service was highly successful, but 
local taxi companies successfully sued, saying the transit agency was 
violating their franchise. The court gave the transit district a choice 
of buying out the taxi franchise or ceasing the shared-taxi service, 
and it ended the service. Not all cities have given taxi companies 
exclusive franchises to carry people door to door, so it should not be 
necessary to buyout every taxi franchise in order to run shared taxi 
services.
    In retrospect, it would have made more sense for San Jose to buy 
the franchise than to do what it did instead, which was to build an 
expensive but little-patronized light-rail system. This, however, is a 
predictable result of increasing Federal subsidies to transit: in order 
to get as much ``free'' Federal money as possible, cities and transit 
agencies choose high-cost solutions to transit rather than build 
efficient transit systems.
    Instead of focusing on urban cores where transit demand is highest 
and transit-dependent customers are concentrated, the Federal Transit 
Administration is intent on extending transit into more and more remote 
areas. Under the section 5310 program, which Congress created to fund 
transportation for elderly and disabled people, the FTA provides 
transit grants for service in increasingly rural areas. In 2007, the 
FTA even set a target of funding transit service in 75 percent of rural 
counties by 2012.
    Advocates of increased transit subsidies often say they just want 
to provide people with more options. For example, the title of the 
Transportation for America report is ``Aging in Place, Stuck Without 
Options.'' But what good are options if few people want to use them? 
There are lots of alternative modes of transportation. Flying in 
dirigibles is an option. Cable cars are an option. Getting shot from 
cannons is an option. Some people might say these options sound 
ridiculous, but they are no more ridiculous than spending hundreds of 
billions of dollars subsidizing transit systems that have been 
declining in importance for 65 years.
    The best option for transit riders in general, and seniors and 
disabled riders in particular, is to privatize transit. Private transit 
operators would provide fast, frequent service in urban cores where 
transit demand is high and on-demand, shared-taxi services in more 
remote areas.
    Today, the Cato Institute is releasing a new report comparing 
private, intercity bus service with Amtrak. Although subsidies to 
Amtrak are roughly 100 times greater than subsidies to intercity buses, 
the intercity buses carry about three times as many passenger miles as 
Amtrak. In numerous corridors, including New York-Buffalo, New York-
Toronto, New York-Raleigh, Washington-Richmond, Raleigh-Charlotte, 
Chicago-Minneapolis, and Chicago-Indianapolis to name a few, various 
intercity bus companies provide faster, more frequent service than 
Amtrak at significantly lower fares.
    Amtrak often brags that it carries more riders in the Boston-to-
Washington corridor than the airlines. But Amtrak's Northeast Corridor 
trains also compete with more than a dozen intercity bus companies that 
collectively carry 50 percent more trips and passenger miles than the 
trains. While Amtrak fares from Washington to New York start at $49, 
and Acela fares start at $139, bus fares start at $1.50 and rarely 
exceed $25.
    Intercity buses outperform Amtrak precisely because they are 
private. Intense competition has led bus companies to reduce fares and 
streamline operations. Megabus, which is owned by the same company as 
Coach USA, introduced yield management (flexible fares starting at $1) 
to the bus industry in 2006. Companies such as Vamoose and LimoLiner 
offer first-class services with plenty of legroom and on-board 
amenities such as movies and meals. Ending subsidies to Amtrak would 
stimulate the extension of such services to more parts of the country.
    In the same way, transit riders could greatly benefit from 
privatizing transit. Many elderly and disabled riders in urban cores 
would have more options than ever. Riders in many suburban areas could 
choose between commuter buses, bus rapid transit, and shared-taxi 
services. And, just as people move to be closer to school, jobs, child-
friendly neighborhoods, or other amenities, people in remote areas who 
desire transit service should be willing to move to places that are 
better served by transit.
    Our transit model is broken. If we want transit to save energy, 
reduce pollution, and serve seniors and disabled riders as well as 
commuters, school children, and anyone else who wants to use it, we 
need to run transit systems like a business, not an entitlement. This 
can be achieved by opening up transit (and taxis) to competition from 
the private sector or by outright privatization.
              Additional Material Supplied for the Record
  STATEMENT SUBMITTED BY SANDY MARKWOOD, CHIEF EXECUTIVE OFFICER, n4a
    Thank you, Chairman Menendez, Ranking Member DeMint, and Members of 
the Subcommittee for holding this important hearing. As Chief Executive 
Officer of the National Association of Area Agencies on Aging (n4a), I 
am pleased to share our thoughts on ways to promote broader access to 
public transportation for America's older adults and people with 
disabilities.
    n4a represents 629 Area Agencies on Aging (AAAs) and 246 Title VI 
Native American aging programs in the U.S., which have been 
coordinating and providing critical home- and community-based services 
to older adults and their caregivers for more than 35 years. The 
supports and services provided by the Aging Network reflects and 
addresses how people want to age--at home and in the community. It also 
helps individuals avoid unnecessary and more expensive institutional 
care. Given that home- and community-based services are estimated to 
cost, on average, one-third of the expense of institutional care, these 
services save money for Federal and State Governments.
    n4a coadministers the National Center on Senior Transportation 
(NCST) in partnership with Easter Seals. The NCST was created in the 
``Safe, Accountable, Flexible, Efficient Transportation Equity Act: A 
Legacy for Users'' (SAFETEA-LU) to be a resource to increase mobility 
for older adults. The NCST is administered through a cooperative 
agreement with the Federal Transit Administration (FTA). The NCST works 
in collaboration with the FTA to provide technical assistance, 
education, and outreach to the aging and transit communities and is the 
preeminent resource in the country for helping increase the mobility of 
older adults. n4a also cochairs the Senior Transportation Task Force, a 
national coalition of organizations working together to advocate for 
national public policy that increases the mobility of older adults and 
people with disabilities.
The Demographics
    Older Americans represent the fastest growing demographic in our 
Nation. There is a tremendous need for transportation options for older 
adults and this need will grow rapidly over the next several years. 
While many older adults drive, the majority will lose the physical and/
or financial means to do so as they age. Between 2010 and 2030, the 
number of older adults in the United States is expected to increase by 
more than 79 percent. Currently, there are approximately 40 million 
Americans age 65 and older. By 2020, that number is projected to grow 
to nearly 55 million adults age 65 and older, and by 2030, the 65+ 
population will be more than 70 million. As the older adult population 
continues to grow, n4a believes it is critical that Congress place 
greater emphasis on critical community transportation programs that 
provide a vital link between the home and community for older adults 
and people with disabilities.
The Need
    In many communities, older adults and people with disabilities find 
it difficult to access essential services because of lack of 
transportation. This is particularly true for older adults who live in 
suburban or rural communities where destinations are too far to walk, 
public transit is nonexistent or poor, and private transportation is 
limited and prohibitively expensive. Older adults and people with 
disabilities have an increasing desire to participate in the workforce, 
to age in place, and to access social and health services. Their 
ability to achieve these goals largely depends on their access to 
transportation services.
    Accessible and affordable transportation connects older adults to 
the places where they can fulfill their most basic needs--the doctor, 
pharmacy, grocery store, employment and volunteer opportunities, 
friends' homes and recreational sites for social interaction, and 
houses of worship for spiritual sustenance. However, as individuals age 
and lose the ability to drive, they can experience a drastic decline in 
their mobility. Many older adults find it difficult to access essential 
transportation services in their communities. Transportation 
limitations resulting in lost mobility increase older adults' risk of 
poor health, as their ability to obtain the goods and services 
necessary to promote good health and well-being is reduced. In 
addition, mobility barriers stifle independence and result in a loss of 
self-sufficiency that can fuel depression.
Key Programs
    Of critical importance are the Federal Transit Administration's 
Section 5310 Elderly and Disabled and New Freedom programs. The Section 
5310 program is the major transit formula grant program helping 
communities serve the transportation needs of older adults and people 
with disabilities, and the New Freedom program funds services to people 
with disabilities that go beyond Americans With Disabilities Act 
requirements. With rising fuel costs and budget cutbacks, the New 
Freedom program provides much needed resources to help ensure that 
these specialized services are available. A key benefit of SAFETEA-LU 
was the requirement for a locally coordinated transportation plan. The 
coordination planning requirement has begun to produce real results in 
bringing key stakeholders to the table, and ensuring the needs of older 
adults and people with disabilities are addressed in planning 
transportation services.
The Challenges
    Communities face significant challenges though as they seek to make 
public transportation more accessible and available through 
transportation programs serving older adults and people disabilities. A 
recently released n4a report, ``Maturing of America: Communities Moving 
Forward for an Aging Population'', \1\ funded by the MetLife 
Foundation, found that inadequate transportation options for older 
adults have emerged as a dominant concern for communities across the 
country. According to the report, transportation has risen from a mix 
of other concerns to the second greatest challenge identified by 
communities since the first survey 5 years ago. This suggests that 
communities ``increasingly recognize the impact of inadequate 
transportation options on older adults--hobbling progress in connecting 
them with services as well as opportunities to contribute.'' As the 
report notes, ``this response may also reflect a growing awareness 
that, no matter how service-rich a community might be, if older adults 
cannot reach those services, it will be for naught.''
---------------------------------------------------------------------------
     \1\ ``The Maturing of America: Communities Moving Forward for an 
Aging Population'', June 2011, Available online at: http://www.n4a.org/
files/MOA_FINAL_Rpt.pdf.
---------------------------------------------------------------------------
    The report found that most transportation services for older adults 
remain available at approximately the same level as in 2005 (80 percent 
compared to 79 percent), despite the increased Federal investment in 
transportation through SAFETEA-LU. Specifically, the survey found the 
percentages of local governments with the following programs available 
in their communities:

  <bullet>  80%--Transportation options for older adults;

  <bullet>  49%--Public transit (fixed-route buses, rail service) for 
        older adults;

  <bullet>  58%--Paratransit for older adults;

  <bullet>  35%--Discounted bus or taxicab fares or vouchers for older 
        adults;

  <bullet>  58%--Door-to-door, door-through-door, and/or dial-a-ride 
        for older adults;

  <bullet>  45%--Road design and signage that meet the needs of older 
        adults;

  <bullet>  75%--Sidewalks and street crossings that are safe and 
        accessible for older pedestrians (e.g., flashing walk signs, 
        sidewalk bumpouts); and

  <bullet>  25%--Mobility management programs (e.g., person-centered 
        counseling on transportation alternatives to driving suited to 
        older adults' needs).
Success Stories
    Clearly, there is much more to be done to ensure that there is 
accessible transportation for older adults and people with 
disabilities. To this end, there are a number of best practices that 
can assist communities as they seek to expand access to public 
transportation and provide greater mobility options to older adults and 
people with disabilities. For example, the NCST has collected the 
following program success stories:

  <bullet>  Without the close working relationships between the Older 
        Americans Act Title VI Native American Aging Program, Tribal 
        Transit and the Community Health Representative (CHR) in Indian 
        country, elders would be unable to get to needed medical 
        appointments and to other essential services. One example of 
        this is the Laguna Pueblo in New Mexico. Elders with medical 
        appointments are encouraged to contact the Title VI Program 
        first, which matches the individual's support needs to the type 
        of transportation best suited to the situation. If the Title VI 
        Program has reached capacity, staff coordinates with the CHR or 
        Tribal Transit to provide a ride.

  <bullet>  A few years ago when the county threatened to end funding 
        for public transportation because of low ridership, the 
        Allegany County Office for the Aging (NY) and the Allegany/
        Western Steuben Rural Health Network joined forces with others, 
        including the ARC. Their partnership lead to a successful 
        application for New Freedom funding, development of mobility 
        management to assist older people and people with disabilities 
        understand their transportation options and choose the ride 
        that was right for them and creation of a new ``circulator'' 
        bus route that includes stops at senior housing, grocery store, 
        and pharmacy and has led to increased ridership overall on 
        public transit.

  <bullet>  Grand Gateway AAA/Economic Development Association 
        established Pelivan Transit to provide flexible, accessible 
        transportation to a rural, seven-county area in northeastern 
        Oklahoma. The program serves an aging and geographically 
        dispersed population, offering demand-response, deviated fixed 
        route and transportation to nutrition sites, work and 
        activities. Pelivan Transit has succeeded in creating an 
        accessible network of rural transportation that helps link 
        seniors to medical treatment, human services and social 
        activities utilizing Section 5311, Section 5310, and New 
        Freedom as well as 5311(c) Tribal Transit funding. Through a 
        diversified approach and close coordination with health and 
        human service providers, Grand Gateway has continued to 
        solidify its transportation network, allowing staff to focus 
        some of its efforts on improved coordination and scheduling of 
        rides. This focus allows for the planning of pooled rides to 
        special events and excursions for seniors.

  <bullet>  The Hyde Shuttles is a coordinated, community-based 
        paratransit operation in King County, Washington. The Hyde 
        Shuttles program provide affordable, accessible, user-friendly 
        transportation to older adults and people with disabilities, 
        providing a vital link to community services for people who 
        otherwise might remain homebound and isolated. The project 
        offers services beyond the requirements of the Americans With 
        Disabilities Act, focusing on unserved and underserved people 
        who fall through identified gaps in public transportation. 
        Through the years the program has replicated Shuttles 
        operations in different areas of King County and now has 25 
        vans on the road. The program received FTA New Freedom funding 
        through a competitive grant process administered by the Puget 
        Sound Regional Council and will be adding eight more vans over 
        the next 2 years.

    The Hyde Shuttles program has developed a broad base of community 
        support including partnerships with King County Metro transit 
        agency, the local Area Agency on Aging, King County Housing 
        Authority, and other human services agencies. These 
        partnerships have allowed the program to expand operations as 
        well as customize service to meet the individual needs of the 
        communities and populations served. The project increases 
        mobility options, creates service efficiencies, maximizes 
        resources, and improves service quality for the special needs 
        population. The program's success demonstrates that community-
        based transportation providers are an effective mobility option 
        to meet the current and future transportation needs of many 
        seniors and people with disabilities in King County.

  <bullet>  Ride Connection, a Portland, Oregon, based nonprofit, 
        coordinates a network of over 30 providers. Despite having a 
        world-class transit system, many older adults refrain from 
        using transit because of barriers that must be identified and 
        addressed. Ride Connection created its RideWise travel training 
        and mobility support program to provide older adults with 
        opportunities to learn about and experience public 
        transportation in a relaxed, no-pressure environment and to 
        offer information that is specific to their community and their 
        needs. The RideWise program established as collaborative effort 
        with the greater Porter area's transit system includes transit 
        orientation and information about the RideWise family of 
        services, customized informational bulletin boards for older 
        adult residential locations with schedules of the bus lines 
        serving the area, facility-based Riders Clubs to provide a 
        relaxed environment for individuals to try the system with 
        their friends, and on-site RideWise transit advocates providing 
        information to their neighbors.

  <bullet>  FriendshipWorks is a network of trained volunteers with the 
        mission ``to decrease the social isolation, enhance the quality 
        of life, and preserve the dignity of elders and adults with 
        disabilities in Boston and Brookline.'' The Medical Escort 
        Program is one of several programs managed by FriendshipWorks. 
        This door-through-door service provides a trained volunteer to 
        accompany older adults to and from medical appointments, assist 
        them in navigating hospitals and doctor offices, pick up 
        prescriptions if necessary, and attend the doctor visit with 
        the patient if requested. FriendshipWorks' La Cadena de Amista 
        serves the Latino community by providing the appropriate 
        Medical Escort Program services to Spanish-speaking elders, and 
        also assisting them with accessing the healthcare system, 
        translating medical information, and reducing language and 
        cultural barriers.
The Reauthorization
    Without adequate transportation, the growing segment of our 
population represented by older adults and people with disabilities 
will either remain isolated in their homes or end up in institutions 
unnecessarily. While the last reauthorization provided some increased 
funding for senior transportation, significant new funds are needed to 
address the unmet transportation needs that now exist for older adults 
and people with disabilities--needs that will only increase over the 
next authorization. The reauthorization provides an excellent 
opportunity for Congress to improve on the planning, coordination, and 
administration of the Section 5310 and New Freedom programs--while 
staying true to the original intent to target those with specialized 
transportation needs--to increase the availability and accessibility of 
transportation services for older adults and people with disabilities.
Policy Recommendations
    n4a supports the following steps to ensure that older adults and 
people with disabilities have adequate mobility options.

  <bullet>  Increase overall transit funding for programs that enhance 
        and support mobility options for all. n4a supports increased 
        funding for transit programs in all areas of the country, 
        including formula grants for urbanized and rural areas and 
        grants that provide more targeted funding to vulnerable 
        populations, such as older adults and people with disabilities. 
        It is critical that the next authorization increases investment 
        in transit to a level that will meet the growing demand for 
        services and allow for affordable, efficient, and reliable 
        transportation options for all Americans.

  <bullet>  Significantly boost funding for the Section 5310 Elderly 
        and Disabled Formula Grant Program and New Freedom Program. 
        Current funding is nowhere near enough to ensure needed 
        transportation for the millions of older adults age 60 and 
        older and the tens of millions of people with disabilities 
        currently living in the United States, let alone the influx of 
        aging boomers. Communities are in desperate need of assistance 
        to address the mobility needs of their rapidly growing older 
        adult populations.

  <bullet>  Expand use of 5310 funds to operating assistance making 
        funding available for operating costs as well as capital needs. 
        This change would make the program consistent with other 
        Federal transportation programs, including the Section 5307 
        urbanized program and Section 5311 rural program, and would 
        allow nonprofits to not only obtain new vans and buses but to 
        ensure that they are operational with funding available to pay 
        for preventive maintenance, insurance, rising fuel costs, and 
        driver compensation.

  <bullet>  Continue the current transfer authority or flexing to meet 
        the needs of the designated populations between the 5310 and 
        New Freedom programs and other formula grants, and require that 
        States track and report on each program's funds separately.

  <bullet>  Undertake any program consolidation efforts cautiously and 
        be mindful of the impact program changes will have on the 
        vulnerable populations now being served under current programs. 
        Efforts to streamline transportation programs to create 
        efficiencies and minimize administrative burden are laudable 
        and necessary in the current economic environment. However, we 
        urge that consolidation efforts be undertaken very cautiously 
        and that protections be put in place to ensure that needed 
        services are not lost in the process.

  <bullet>  Provide incentives and support for further coordination of 
        transit and other human services programs by increasing the 
        accountability and transparency of planning processes. Transit 
        planning must be more effectively coordinated with broader 
        community planning efforts. States and metropolitan planning 
        organizations must also do a better job of reaching out to the 
        aging and disability communities and actively and substantively 
        involving them when making planning decisions.

  <bullet>  Ensure that Section 5310 and New Freedom program 
        information is more transparent and program data is publicly 
        available through an integrated national database. Establish 
        more robust and consistent reporting standards for State and 
        local recipients under the programs to increase transparency, 
        better evaluate that the programs are meeting their objectives, 
        and identify and assess unmet needs.

  <bullet>  Support transportation initiatives that lead to livable 
        communities for all ages. This includes planning grants that 
        will assist communities to plan and invest in projects that are 
        environmentally sustainable and promote livable communities for 
        all ages, and adopt ``Complete Streets'' policies that direct 
        transportation planners to consider the needs of all users when 
        considering and making transportation investment decisions.

  <bullet>  Enhance access to mobility management services to better 
        help transit and human services systems meet the needs of older 
        adults and people with disabilities by establishing a dedicated 
        funding source for these activities that supplement traditional 
        services provided by transit agencies, the Aging Network and 
        other partners. Look for ways to provide additional incentives 
        to use capital funds for these activities and provide 
        additional technical assistance to help transportation programs 
        develop mobility management efforts and adapt them to the 
        unique needs of the populations served by the program.

  <bullet>  Increase funding for technical assistance and education 
        efforts such as the National Center on Senior Transportation to 
        allow further demonstration, outreach, and training and 
        technical assistance activities to meet the growing needs of 
        the aging and transit communities.

    Thank you for considering these ideas. We look forward to working 
with the Subcommittee on these issues as the reauthorization process 
moves forward and you develop proposals for the next surface 
transportation bill.

</pre></body></html>
